<html>
<title> - S. Hrg. 110-1076 OVERSIGHT ON THE NUCLEAR REGULATORY COMMISSION</title>
<body><pre>[Senate Hearing 110-1076]
[From the U.S. Government Publishing Office]



 
                                                       S. Hrg. 110-1076

             OVERSIGHT ON THE NUCLEAR REGULATORY COMMISSION
=======================================================================

                                HEARING

                               before the

              SUBCOMMITTEE ON CLEAN AIR AND NUCLEAR SAFETY

                                 of the

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 25, 2007

                               __________

  Printed for the use of the Committee on Environment and Public Works



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                               __________



                    U.S. GOVERNMENT PRINTING OFFICE
55-928 PDF              WASHINGTON : 2010
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3552455a75564046415d5059451b565a581b">[email&#160;protected]</a> 














               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         LARRY E. CRAIG, Idaho
BERNARD SANDERS, Vermont             LAMAR ALEXANDER, Tennessee
AMY KLOBUCHAR, Minnesota             CRAIG THOMAS, Wyoming
SHELDON WHITEHOUSE, Rhode Island     CHRISTOPHER S. BOND, Missouri

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director
                              ----------                              

              Subcommittee on Clean Air and Nuclear Safety

                  THOMAS R. CARPER, Delaware, Chairman
JOSEPH I. LIEBERMAN, Connecticut     GEORGE V. VOINOVICH, Ohio,
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
BERNARD SANDERS, Vermont             LAMAR ALEXANDER, Tennessee
BARBARA BOXER, California, (ex       JAMES M. INHOFE, Oklahoma, (ex 
    officio)                             officio)

                            C O N T E N T S

                              ----------                              
                                                                   Page

                             APRIL 25, 2007
                           OPENING STATEMENTS

Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     4
Sanders, Hon. Bernard, U.S. Senator from the State of Vermont....     6
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...     7
Clinton, Hon. Hillary Rodham, U.S. Senator from the State of New 
  York...........................................................    41

                               WITNESSES

Klein, Dale E., Chairman, Nuclear Regulatory Commission..........    11
    Prepared statement...........................................    13
    Responses to additional questions from Senator Boxer.........    22
McGaffigan, Edward, Commissioner, Nuclear Regulatory Commission..    26
Merrifield, Jeffrey S., Commissioner, Nuclear Regulatory 
  Commission.....................................................    26
Jaczko, Gregory B., Commissioner, Nuclear Regulatory Commission..    28
    Responses to additional questions from:
        Senator Boxer............................................    30
        Senator Voinovich........................................    31
        Senator Craig............................................    35
        Senator Sanders..........................................    35
        Senator Inhofe...........................................    39

                          ADDITIONAL MATERIAL

Statement, Lyons, Peter B., Commissioner, Nuclear Regulatory 
  Commission.....................................................    63
NRC's Initiatives Involving Institution of Higher Education......    64
NRC Office Space Needs........................................... 64-65




             OVERSIGHT ON THE NUCLEAR REGULATORY COMMISSION

                              ----------                              


                       WEDNESDAY, APRIL 25, 2007

                               U.S. Senate,
         Committee on Environment and Public Works,
              Subcommittee on Clean Air and Nuclear Safety,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 o'clock 
a.m. in room 406, Dirksen Senate Office Building, the Hon. 
Thomas R. Carper (chairman of the subcommittee) presiding.
    Present: Senators Carper, Clinton, Inhofe, Sanders, 
Voinovich.
    Senator Carper. Good morning. I welcome our Chairman and 
Commissioners this morning. I welcome my colleagues, Senator 
Inhofe and Senator Sanders. We may be joined, I suspect, by 
most of the members of the subcommittee, and some are not.
    Before we begin today, I would like to address a couple of 
procedural matters. We are currently scheduled to have a vote 
around 11 o'clock a.m. I would like for us to proceed with the 
hearing and see how far we can get before we have that vote. I 
think it is only one vote, and we will reconvene after the vote 
if necessary, so Senators can continue asking questions and the 
Commissioners can continue answering them.
    The chairman seeks short, direct responses, but I can't 
promise that the questions will be short, but hopefully we will 
both keep some economy in our words.
    Senators will have 5 minutes for their opening statements, 
and we will be following the early bird rule with respect to 
member statements.
    I will recognize Chairman Klein for his 5 minute testimony, 
and each of our other Commissioners for 3 minutes to share 
their views. When we get into our questions, we will have 7 
minutes for those rounds of questions.
    Before we begin today, I just want to acknowledge the 
service of one of our Commissioners, Commissioner Merrifield. I 
said, who nominated you to serve on the Commissioner? Who did 
you tell me?
    Mr. Merrifield. Senator Chafee.
    Senator Carper. Senator Chafee. I said, well, what 
President nominated you? He said it was President Clinton. So 
we thank them both for nominating you and sending your name to 
the Senate for consideration. Nine years, that is a long time. 
I understand you will be serving until the end of June. We are 
grateful on behalf of the committee, and on behalf of, really, 
our country, thank you for your service and for your service 
over the next couple of months. You are still on the payroll so 
we expect a whole lot out of you. As it turns out, there is a 
lot for the commission to do, as you know.
    Mr. Merrifield. Thank you very much, Senator Carper.
    Senator Carper. Thank you.
    Not long ago, and I don't know if my colleagues on the 
committee know this, but the NRC was designated as the best 
place to work in the Federal Government. I said to my staff, it 
is probably because they didn't include our offices in that 
discernment, but that is a terrific recognition. I would 
applaud the Chairman and the Commissioners. I applaud your 
predecessors as well, and the members of your team for the work 
that they have done to make that kind of recognition possible.

STATEMENT OF HON. THOMAS R. CARPER, U.S. SENATOR FROM THE STATE 
                          OF DELAWARE

    Senator Carper. Today's hearing continues our ongoing 
oversight of the Nuclear Regulatory Commission. I am privileged 
to be Chairman of this subcommittee and privileged to follow in 
the footsteps of my friend George Voinovich, who is our Ranking 
Member, and before him, Senator Jim Inhofe, and to hold regular 
hearings to review the NRC's activities.
    Earlier this year, I met with Senator Voinovich to discuss 
our plans for this subcommittee. We developed a very extensive 
oversight agenda to ensure that the industry and the Nuclear 
Regulatory Commission are prepared for the challenges and for 
the opportunities that lie ahead.
    The issues that we will focus on this year as a 
subcommittee include the following ones: No. 1, new reactor 
licensing; and No. 2, ensuring that the NRC has the human 
capital necessary to fulfill its mission. For any of you who 
know George Voinovich, you know that that is something that is 
of prime interest to him. No. 3 is nuclear security regulation; 
No. 4, reactor safety; and No. 5, nuclear waste solutions.
    Let me just talk a moment about each of those. First of 
all, new reactor licensing. The NRC anticipates receiving 
somewhere between 5 to 7 combined operating license 
applications before the end of this year, and another 10 to 12 
during calendar year 2008. We want to be sure that the 
commission is prepared to process these applications and do so 
in a way that is timely and do so in a way that always promotes 
safety.
    Second is to ensure that the NRC has the human capital 
necessary to fulfill its mission. I am told that more than one 
third of the NRC's workforce will retire in the next few years, 
and a couple in the next few months. We want to say that that 
happens at the same time that the NRC's responsibilities are 
expanding once again. We intend to closely monitor the NRC's 
efforts to hire new employees and the Agency's plan to train 
these new hires. We want to be helpful to make sure you get the 
best and the brightest.
    No. 3 was nuclear security regulations. Earlier this year, 
the commission issued new security requirements for the 
civilian fleet. In addition, yesterday the commission proposed 
adding plane crash security assessments to new reactor designs. 
I intend to hold a secure briefing for members of this 
subcommittee and other members of our committee who would like 
to participate in the coming weeks to discuss these security 
regulations in greater detail than we can discuss here in this 
forum today.
    No. 4, nuclear reactor safety. I want the people of 
Delaware, the people of Vermont, Oklahoma, Ohio and other 
States across the country, I want us all to be safe. It is the 
NRC's job to ensure that that happens. I support the commission 
and nuclear industry as you plan for a nuclear renaissance, 
with new plants coming on line. However, we must continue 
oversight of existing plants and ensure that they perform at a 
high level of excellence.
    It is our goal to ensure that the NRC addresses the 
shortcomings highlighted by GAO last year in the reactor 
oversight process, and enable the commission to fulfill its 
responsibilities and to instill public confidence.
    With respect to nuclear waste solutions, let me just say 
that there are other countries that use nuclear power more 
extensively than we do. We might have the opportunity to learn 
from them what they do with their nuclear wastes, and to bring 
others to us, to speak to us and share with us their counsel 
for what we might do to dispose of our nuclear waste in a safe 
way as we try to think outside the box.
    Again, I want to thank Chairman Klein and the other 
Commissioners for coming here today and helping us in 
discussing these and other issues. We look forward to your 
testimony and to working with our colleagues.
    With that having been said, let me yield to Senator Inhofe, 
and to welcome him. Thank you for joining us today, and for 
your leadership of this subcommittee and committee.
    [The prepared statement of Senator Carper follows:]
       Statement of Hon. Thomas R. Carper, U.S. Senator from the 
                           State of Delaware
    Welcome, I appreciate the Chairman and several of the Commissioners 
effort to be with us today.
    Before we begin, I want to acknowledge Commissioner Merrifield. 
While I intend to hold several more oversight hearings this Congress, 
this may be the last opportunity Commissioner Merrifield has to appear 
before us, and I want to acknowledge and thank you for your service.
    I know you and the Commissioners are dedicated public servants, and 
I want to take this opportunity to thank you for your service to our 
country.
    Your job is not easy, it takes you away from family and friends, 
and it involves an area of great responsibility--regulating the 
Nation's civilian use of nuclear materials.
    The NRC recently was designated the ``Best Place to Work'' in the 
Federal Government. That is an award to be proud of, and it is a 
testament to the personal leadership and management of each of you on 
the Commission. Good job and congratulations.
    Today's hearing continues our ongoing oversight of the Nuclear 
Regulatory Commission (NRC). As the Chairman of this subcommittee, I 
intend to continue the tradition of Ranking Member George Voinovich, 
and before him Senator Jim Inhofe, to regularly hold hearings to review 
the NRC's activities.
    Earlier this year, I met with Senator Voinovich to discuss our 
plans for this subcommittee, and we developed a very extensive 
oversight agenda to ensure the industry and the Nuclear Regulatory 
Commission are prepared for the challenges and opportunities ahead.
    The issues we will focus on are:
    1. New Reactor Licensing: The NRC anticipates receiving 5 to 7 
combined operating license applications before the end of the year, and 
another 10 to 12 during calendar 2008. We want to be sure the 
Commission is prepared to process these applications.
    2. Ensuring the NRC has the human capital necessary to fulfill its 
mission. More than \1/3\ of the NRC's workforce will retire in the next 
few years--at the same time that the NRC's responsibilities are 
expanding.
    We intend to closely monitor the NRC's efforts to hire new 
employees and the agency's plans to train these new hires.
    3. Nuclear Security Regulations: Earlier this year the Commission 
issued new security requirements for the civilian fleet. In addition, 
yesterday, the Commission proposed adding plane crash security 
assessments to new reactor designs. I intend to hold a secure briefing 
for the Subcommittee in the coming weeks to discuss these security 
regulations in detail.
    4. Reactor Safety: I want the people of Delaware and across the 
country to be safe, and it is the NRC's job to ensure that happens. I 
have supported the Commission and the nuclear industry as they plan for 
a ``nuclear renaissance'' with new plants coming online.
    However, we must continue oversight of existing plants, and ensure 
they perform at a high level of excellence. It is our goal to ensure 
that the NRC addresses the shortcomings highlighted by GAO last year in 
the Reactor Oversight Process, and enable the Commission to fulfill its 
responsibilities and instill public confidence.
    The public must have confidence the current fleet and any new 
reactors are being held to the highest standards. Again, I thank 
Chairman Klein and the rest of the Commissioners for coming here to 
discuss these issues. I look forward to their testimony and to working 
with my colleagues.

STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM THE STATE 
                          OF OKLAHOMA

    Senator Inhofe. Thank you, Senator Carper.
    It is hard for me to believe that it was 10 years ago this 
year that I had the chairmanship of this subcommittee. At that 
time we had gone for about a decade without any kind of an 
oversight hearing. I think a lot of times you guys don't like 
to be referred to as a bureaucracy, but it is. It is impossible 
for any bureaucracy to go without oversight for a long period 
of time.
    So we started those and we actually put in goals, things 
that would happen in a certain period of time, and they did. So 
I think that has worked real well. The ranking that you have 
achieved that was referred to by Senator Carper, I am very 
proud that you folks have done that.
    It is hard for me to believe that Jeff Merrifield has been 
around as long as he has. It seems like just the other day, you 
left Bob Smith's staff to take this position. How many year has 
that been now?
    Mr. Merrifield. Almost nine.
    Senator Inhofe. Almost 9 years. Well anyway, you have done 
a great job and we will certainly miss you around here, 
Commissioner McGaffigan, and I will pray for you. I know you 
are going through a very difficult time, but I am glad that you 
are in a position to continue this service.
    Now, ironically, when Chairman Carper came out with his 
five points, I have the same five points that I was going to 
mention, perhaps in a little----
    Senator Carper. That is scary, isn't it?
    Senator Inhofe. It is scary. You know, you and I, we are 
not supposed to agree on all these things. I think in the 
combined license applications, we are very interested in making 
sure that we have the capacity to take care of these. You have 
heard me say it over and over and over again with the energy 
crisis that have, it is just impossible to look down the road 
and see that we are going to be able to resolve this problem 
without a heavy emphasis on nuclear. We have talked about this 
for many years.
    I hope that in your opening statements, you are going to be 
able to talk about how you are going to keep up with this 
workload. I agree with Senator Voinovich that the guaranteed 
loan program is vital to ensure that we have a new nuclear 
fleet, a new fleet of reactors, and I am open to suggestions on 
how the program can be expanded.
    I am pleased that you are finalizing the Part 52 rule. You 
might remember, now, you promised you would have it by January, 
and here it is April and it just came out. I am not going to 
suggest that if we hadn't had this hearing that it wouldn't be 
out yet, but nonetheless, I am glad it is out now.
    We need to get Yucca Mountain open and accepting waste as 
soon as possible. I understand that you can't pre-judge the 
application. I do want to know whether you need any additional 
resources or legislative authority to deal with the waste 
issues.
    Finally, on security, I think we have done a good job. I 
read with interest, I would say to my members here, and I would 
like to have this page 2 of the NRC Security Spotlight 
publication made a part of the record immediately following my 
remarks.
    Senator Carper. Without objection.
    Senator Inhofe. It kind of shows us that maybe we are 
overreacting, if you want to say that, to some of the security 
risks because it shows by comparison the World Trade Center, 
the Pentagon, and then the nuclear reactors and how they are 
protected and with what kinds of materials. So it is very 
revealing, and I would like to have that to be a part of the 
record.
    [The referenced document was not available at time of 
print:]
    Senator Inhofe. Now, that concludes my opening statement. I 
have the same problem now that I seem to have every time, and 
that is, we have an Armed Services Committee hearing taking 
place at the same time. Because of my seniority there, it is 
required. So I am going to go back and forth between these 
hearings.
    Thanks for having this hearing.
    [The prepared statement of Senator Inhofe follows:]
       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma
    First I want to thank Chairman Carper for holding this oversight 
hearing today. This is the tenth in a series of oversight hearings that 
began in 1997 when I was the Chairman of this subcommittee, and Senator 
Voinovich later continued that tradition. Prior to that first hearing 
there had not been an NRC oversight hearing in more than a decade.
    I think Senators' Carper and Voinovich would both agree with me 
that every bureaucracy needs oversight and the NRC has certainly 
improved immensely over the last 10 years. I would have to say that the 
NRC has developed into a model agency, and I was pleased to hear that 
the NRC has been ranked as the best agency to work for in the Federal 
Government.
    I must say that in order for the agency to succeed, you must have 
good leadership and I believe we have had some outstanding 
Commissioners and Chairmen over the last decade. I want to publicly 
thank Commissioner Merrifield for his service and dedication, this is 
probably your last hearing before this Committee, at least as a 
Commissioner, and you have done an outstanding job.
    I would also like to recognize Commissioner McGaffigan, I was happy 
to hear that your health had improved to the point that you have 
withdrawn your resignation. I am looking forward to you completing your 
current term, and I hope you will consider an additional term.
    That being said, there are many challenges before the Commission, 
and there is always room for improvement. I have a few issues that I 
hope you will address in your statements, and I will follow up during 
my question and answer.
    1. At our hearing last June we discussed the NRC receiving 11 
Combined License Applications (COLs). I now understand that you may 
receive as many as 22 over the next 2 years. I had concerns last year 
on whether you were prepared for 11. Are you prepared now for 22? How 
long do you think each COL will take to process?
    2. I agree with Senator Voinovich that the guaranteed loan program 
is vital to ensuring that we have a new nuclear fleet, and I'm open to 
suggestions on how this program can be expanded.
    3. While I am pleased that you are finalizing the ``Part 52 Rule,'' 
for early site permits, I am also concerned about the delays in getting 
the final rule out and I hope its not a sign of too many agency 
bottlenecks as we move forward.
    4. We need to get Yucca Mountain open and accepting waste as soon 
as possible. While I understand you cannot prejudge the application, I 
do want to know whether you need any additional resources or 
legislative authority to deal with the waste issues.
    5. Finally, on security, I think you have done a very good job, we 
have had a number of closed-door security briefings in this Committee 
in the past, and I hope those continue. While you must remain diligent 
in guarding against new risks, you must also balance that against 
making too many changes in the regulations before all of the security 
measures have been put into place.

    Senator Carper. We will save your seat. Thanks very much 
for joining us for the beginning of this hearing.
    We have been joined by the Ranking Member and former 
chairman, my friend George Voinovich. He said, why don't we 
turn to Senator Bernie Sanders and ask Bernie to make his 
opening statement, and we yield to Senator Voinovich.
    Senator Sanders, glad to be here with you, and thanks for 
joining us.

STATEMENT OF HON. BERNARD SANDERS, U.S. SENATOR FROM THE STATE 
                           OF VERMONT

    Senator Sanders. Thank you very much, Mr. Chairman.
    Like Senator Inhofe, I am going to have to apologize and 
apologize to our guests. I have an amendment on the floor that 
I should tend to.
    This is an important hearing and I very much appreciate 
your having it. As you may know, Mr. Chairman, I have 
introduced S. 1008, which would allow a Governor of a State in 
which a nuclear facility is located, or a Governor of a nearby 
State close to the facility, or the Public Service Commission 
of the State the facility is located in, to request an 
independent safety assessment akin to the thorough assessment 
at Maine Yankee.
    The issue here that we all understand is that nuclear 
power, without getting into the whole controversy surrounding 
nuclear power, it is dangerous stuff. I can't believe that 
there is anybody in the Senate, anybody of our panelists, who 
do not want to make sure that the best and most thorough safety 
examination of a nuclear powerplant takes place. There can be 
no argument about that, it seems to me.
    The reality is, I can tell you that in Vermont, and I think 
in many places in the Country where nuclear powerplants are 
located, is that there is not enormous confidence that the NRC 
is doing all that it can. If nuclear safety is fully assured by 
NRC's procedures, what possible objection could the NRC have to 
allowing States to request such an assessment?
    In other words, this is an issue that I think, frankly, you 
have to go the extra mile on. You have to reassure everybody 
that everything is being done; every question is being asked; 
every question is being answered to make sure that a nuclear 
powerplant is absolutely as safe as humanly possible.
    If there is nothing to hide, then even the nuclear industry 
itself should welcome a thorough assessment, and I hope that 
they would. Unfortunately, the last time such a thorough 
assessment was conducted at the Maine Yankee nuclear facility, 
so many problems were found that the owners decided to shut the 
facility down, rather than to fix all the problems, problems 
which the NRC routine inspections had not found.
    The NRC adopted a reactor operating program, or ROP, in 
response. How do we know the ROP is working unless we give it a 
verification test such as an outside, independent assessment as 
provided for in the legislation that I have introduced? I know 
that the NRC is not particularly happy about that, but I think 
the American people want to make sure that there is an 
independent assessment.
    I also note that in June 2006, Senator Jeffords, who held 
this seat before I did, of Vermont, asked at a hearing on this 
same topic about the April 2005 GAO report on nuclear material 
controls. That report discussed, among other matters, the loss 
of spent fuel rods at Vermont Yankee in 2004. The GAO report 
recommended that the NRC establish requirements for the control 
of loose fuel rods and develop inspection procedures to verify 
clients' complaints.
    The NRC wrote to Senator Jeffords in 2005 saying that it 
was addressing the GAO's findings. However, by the 2006 
hearings, Senator Jeffords noted that little progress in 
actually implementing these recommendations had been 
accomplished. I feel sure that we will hear about the progress 
today. I hope we will, as I am confident you have made strides 
on this issue since 2006.
    Senator Clinton pointed out at that same June 2006 hearing 
that the GAO had conducted yet another investigation, the 
results of which were released in March 2006. This report found 
that undercover teams had carried small amounts of cesium 137 
through border checkpoints undetected, and that there were over 
1,000 incidents where radiation sources have been lost, stolen, 
or abandoned. I hope that we hear today an update on the 
progress of reforms addressing both the 2005 and 2006 GAO 
reports.
    So thank you very much, Mr. Chairman, for holding this 
hearing. It is an important hearing. We are glad the panelists 
are here. There are a lot of issues to be gone over. I want to 
apologize for having to leave.
    Senator Carper. No apology is necessary. We are delighted 
you are here. We understand. Senator Sanders, thanks for 
joining us.
    Senator Voinovich, you are on, my friend.

 STATEMENT OF HON. GEORGE V. VOINOVICH, U.S. SENATOR FROM THE 
                         STATE OF OHIO

    Senator Voinovich. Thank you, Mr. Chairman.
    Senator Sanders, one of the things that I am going to 
request the chairman of this committee to do is to have a 
closed session hearing with the Nuclear Regulatory Commission 
where every member of this committee will be asked to attend. 
We did this a couple of years ago and it was very revealing. I 
think that it would be in your best interests and mine and the 
country's if we had one of those.
    Senator Sanders. Thank you. I look forward to participating 
in that.
    Senator Voinovich. I would like to welcome Chairman Klein 
and Commissioners McGaffigan, Merrifield and Jaczko. It is nice 
to have this first hearing of this Congress, Mr. Chairman.
    Mr. Merrifield, this probably is the last time you will be 
before us, serving on the commission honorably since 1998. I 
just want you to know how much I appreciate your dedication and 
the kindness that you have extended to me. I hope you feel 
very, very good about the service that you have performed on 
the NRC.
    Mr. Merrifield. I do. Thank you, Senator.
    Senator Voinovich. I would also like to acknowledge 
Commissioner McGaffigan, whose selfless devotion to duty and 
dedication as a public servant should be a model for everyone 
in Government service. Ed, I really appreciate the fact that 
you are here and you are standing there, and you know that you 
are in my prayers and the prayers of a whole lot of other 
people.
    Mr. Chairman, with this group of highly talented and 
dedicated individuals, it is no accident that the NRC has been 
ranked the best place to work in the Federal Government. I like 
that. It is pretty good. I believe that our persistent and 
demanding oversight of the NRC is bearing fruit in the form of 
steady improvements at the NRC. Of the 19 subcommittee hearings 
you and I have held in the past two Congresses, six were 
dedicated to NRC oversight.
    We have also engaged the Government Accountability Office 
to conduct independent reviews of the NRC in a number of 
critical areas. Perhaps one of the most significant 
improvements at the NRC involves overhauling its reactor 
oversight process they refer to it as the ROP--for nuclear 
plants. Applying the lessons learned from the Davis-Besse 
incident in 2002, which now includes an assessment of safety 
culture at nuclear powerplants, is viewed by all stakeholders, 
including GAO, which issued a report last fall, as a major 
success story.
    NRC has also made significant strides in enhancing nuclear 
plant security and improving its efficiency in license renewal 
and power up-rate review processes.
    During the last Congress, this committee spent a 
considerable amount of time on legislation to provide for the 
safe and secure growth of nuclear power. Legislation and 
several other key initiatives were included in the 2005 Energy 
Policy Act, leading the NRC to project that we will receive, 
and this keeps varying from 1 week to the other, but 18 
applications for 27 reactors within the next 2 to 3 years.
    This is a huge challenge for an agency that has not seen 
this type of major licensing actions in the last 25 years or 
so. It is a huge change also, frankly, for all of the 
manufacturers and others that are out there that are going to 
need to support this effort. That is why we also held three NRC 
oversight hearings last year to ensure that NRC is aggressively 
gearing up to meet this challenge.
    In addition to the new reactors, the commission must 
continue to deal with license renewals and increased generation 
capacity for existing plants, security assessments and 
regulations licensing Yucca Mountain, and the day-to-day 
regulatory activities for the Nation's 103 operating plants. It 
is a big responsibility.
    We were also able to secure additional funds for the NRC 
through fiscal year 2006 and 2007 appropriations for nuclear 
plant security, new reactor licensing, and human capital and 
management.
    I want to thank the chairman and the other people that we 
lobbied at OMB to get the money that they needed so that we 
could do our part to leverage another $93 million from the 
private sector.
    The bottom line is that we have provided every legislative 
and funding provision that the NRC requested and more, Dr. 
Klein. I am anxious to hear your testimony to get an update on 
the Agency's progress in meeting these challenges. I know many 
of you heard me say this more than once, but I think it is 
worth repeating. The Commission must take a balanced approach 
as a regulator that ensures the safe and secure operation of 
the existing fleet of nuclear plants without stifling the 
growth of nuclear power.
    I expect the Commission to apply the same set of 
performance standards for the Agency as they do with their 
licenses to guard against complacency, while focusing its 
resources on those issues that truly make a significant 
difference.
    Mr. Chairman, while the focus of this hearing is on NRC 
oversight, I must bring to the committee's attention broader 
challenges that this Nation is facing if we are to continue and 
hopefully increase our Nation's use of nuclear power, which I 
believe is essential to meeting our environmental, energy and 
economic needs.
    Although one of the objectives of the 2005 Energy Policy 
Act is to do exactly that, I am afraid the Administration's 
implementation of the energy bill has been slow at best, and 
leaves a lot to be desired. I recently met with Secretary 
Bodman and OMB Director Portman to discuss the importance of 
the 2005 energy provisions, especially the loan guarantee 
provision, in jump-starting new nuclear plant construction.
    I am also concerned about the lack of domestic industry 
base for nuclear plant components and lack of human capital. 
Currently, there is only one facility worldwide, in Japan, that 
is capable of producing heavy forgings for commercial nuclear 
reactor vessels. Consequently, there is a 4-year lead time for 
procuring such critical components.
    Whatever this country does, it is clear that nuclear power 
is growing elsewhere in the world. The Nation would be well 
served if our own energy needs serve as a springboard to not 
only do the nuclear power, but to rebuild U.S. technology and 
manufacturing capabilities so that we can once again provide 
the leadership worldwide, contributing to foreign markets, as 
well as supporting our own.
    Mr. Chairman, I really sincerely appreciate your holding 
this hearing, and I look forward to more of them this year and, 
more importantly, hearings with Chairman Klein in your office.
    [Laughter.]
    Senator Voinovich. Thank you.
    [The prepared statement of Senator Voinovich follows:]
     Statement of Hon. George V. Voinovich, U.S. Senator from the 
                             State of Ohio
    Thank you, Mr. Chairman.
    I would like to welcome Chairman Klein, Commissioners McGaffigan, 
Merrifield, Jaczko (pronounced Yatz-ko), and Lyons to our first 
subcommittee hearing of this Congress--welcome.
    Commissioner Merrifield, this probably is the last time that you 
will be before us after serving on the Commission honorably since 1998. 
I sincerely appreciate your years of dedication and hard work and wish 
you well in your new career.
    I would also like to acknowledge Commissioner McGaffigan whose 
selfless devotion to duty and dedication as a public servant should be 
a model for everyone in government service. Mr. Chairman, with this 
group of highly talented and dedicated individuals on the Commission, 
it is no accident that NRC has been ranked the best place to work in 
the Federal Government.
    Mr. Chairman, I do believe that our persistent and demanding 
oversight of the NRC is bearing fruit in the form of steady 
improvements at the NRC. Of the 19 Subcommittee hearings you and I have 
held in the past 2 Congresses, six were dedicated to NRC oversight. We 
have also engaged the Government Accountability Office to conduct 
independent reviews of the NRC on a number of critical areas.
    Perhaps one of the most significant improvements at the NRC 
involves overhauling its Reactor Oversight Process (ROP) for nuclear 
plants, applying the lessons learned from the Davis-Besse incident in 
2002. The ROP, which now includes an assessment of safety culture at 
nuclear power plants, is viewed by all stakeholders, including the GAO 
which issued a report last fall, as a major success story. NRC has also 
made significant strides in enhancing nuclear plant security and 
improving its efficiency in license renewal and power uprate review 
processes.
    During the last Congress, this Committee spent a considerable 
amount of time on legislation to provide for the safe and secure growth 
of nuclear power. Our legislation and several other key initiatives 
were included in the 2005 Energy Policy Act, leading the NRC to project 
that they will receive 18 applications for 27 reactors within the next 
2 to 3 years.
    This is a huge challenge for an agency that has not seen this type 
of major licensing actions in the last 25 years or so. That is why we 
also held three NRC oversight hearings last year to ensure that NRC is 
aggressively gearing up to meet this daunting challenge.
    In addition to new reactors, the Commission must continue to deal 
with license renewals and increased generation capacity for existing 
plants, security assessments and regulations, licensing Yucca Mountain, 
and the day-to-day regulatory activities for the Nation's 103 operating 
plants. We were also able to secure additional funds for the NRC 
through FY2006 and FY2007 appropriations for nuclear plant security, 
new reactor licensing, and human capital management.
    The bottom line is that we have provided every legislative and 
funding provision that NRC requested and more. Dr. Klein, I am anxious 
to hear your testimony to get an update on the agency's progress in 
meeting these challenges.
    I know many of you heard me say this more than once, but I think it 
is worth repeating. The Commission must take a balanced approach as a 
regulator that ensures the safe and secure operation of the existing 
fleet of nuclear plants without stifling the growth of nuclear power. I 
expect the Commission to apply the same set of performance standards 
for the agency as they do with their licensees to guard against 
complacency while focusing its resources on those issues that are truly 
safety significant.
    Mr. Chairman, while the focus of this hearing is on the NRC 
oversight, I must bring to the Committee's attention broader challenges 
that this Nation is facing if we are to continue and hopefully increase 
our Nation's use of nuclear energy, which I believe is essential to 
meeting our environmental, energy, and economic needs.
    Although one of the objectives of the 2005 Energy Policy Act is to 
do exactly that, I am afraid that the Administration's implementation 
of the energy bill has been slow at best and much to be desired. I 
recently met with Secretary Bodman and OMB Director Portman to discuss 
the importance of the 2005 energy bill provisions, especially the loan 
guarantee provision, in jump-starting new nuclear plant construction.
    I am also concerned about the lack of a domestic industry base for 
nuclear plant components and lack of human capital. Currently, there is 
only one facility worldwide (Japanese) that is capable of producing 
heavy forging for commercial nuclear reactor vessels. Consequently, 
there is a 4-year lead time for procuring such critical components.
    Whatever this country does, it is clear that nuclear power is 
growing elsewhere in the world. The Nation would be well served if our 
own energy needs serve as a springboard to rebuild U.S. technology and 
manufacturing capabilities so that we can once again provide the 
leadership worldwide, contributing to foreign markets as well as 
supporting our own.
    Mr. Chairman, thank you once again for holding this hearing.

    Senator Carper. Thank you, Senator Voinovich.
    This hearing occurs today at a time when we are witnessing 
a renaissance in nuclear power in this country. This is a time 
of promise. This is also a time of real challenge for our 
Nation, a time of challenge because of our huge and growing 
dependence on foreign oil; a time of challenge because of our 
need to reduce that dependence; and also to reduce the emission 
of harmful substances into our air, sulfur dioxide, nitrogen 
oxide, mercury, and carbon dioxide.
    There are any number of promising ways to address those 
challenges. In my mind, one of the most promising is nuclear 
power, and to grow our dependence on nuclear power as we better 
master our ability to harness the wind, solar energy, 
geothermal and hydro, biomass, and just to find ways to run 
this country in ways that are more environmentally friendly and 
to better conserve the energy that we do produce.
    A friend of mine, we were talking about this hearing, 
Senator Voinovich, and about the need to move expeditiously to 
approve the applications that are being submitted to the 
Commission, but at the same time, to make sure that we move 
judiciously, and that we continue to focus on safety and 
security.
    One of the best ways to derail this nuclear renaissance is 
for accidents, for incidents to occur, for mishaps to occur, 
and for behavior to occur at nuclear powerplants in a way that 
undermines the confidence of the people in general, the 
Congress, and others. That puts a heavy burden on all of you, 
almost a sacred responsibility. I know you take that seriously.
    Before I recognize Chairman Klein, I want to do two quick 
things. I understand one of our Commissioners is not here 
today. I understand Commissioner Lyons is traveling out of the 
country today. He has submitted a written statement and he has 
asked that his statement be submitted for the record. If there 
is no objection, we will do that. Hearing no objection.
    [The referenced document follows on page 63.]
    Senator Carper. Also I just want to say to Ed McGaffigan 
how pleased we are that you are here. Others have said this as 
well, I don't want you to think we are piling on, but we are 
just delighted that you are still standing and that you are 
still sitting here at this table. I look forward very much to 
all of your testimonies, but particularly that of you and your 
colleague, Mr. Merrifield.
    Chairman Klein, you are recognized, and thank you.

   STATEMENT OF DALE E. KLEIN, CHAIRMAN, NUCLEAR REGULATORY 
                           COMMISSION

    Mr. Klein. Thank you.
    Mr. Chairman and members of the committee, my fellow 
Commissioners and I are pleased to appear before you to discuss 
the Nuclear Regulatory Commission's programs. Unfortunately, as 
you indicated, Commissioner Lyons was unable to be with us 
today due to a longstanding engagement.
    As you also already recognized, this might be Commissioner 
Merrifield's last appearance before this committee. I would 
certainly like to take this opportunity to thank him for his 
two terms of dedicated service to the NRC. Since he was first 
appointed in 1998, Jeff has proven himself to be a tireless and 
curious student of the NRC's facilities and operations in order 
to fulfill better his responsibilities as a Commissioner. Now 
that he is making what might be his last official appearance, 
we certainly want to recognize Commissioner Merrifield for his 
contributions.
    As you indicated, we would also like to congratulate 
Commissioner Ed McGaffigan on his health recovery so far. 
Obviously, his treatment has had a positive impact on the 
cancer, and we look for many more months, if not years, of 
service. He has only had about 40 years of public service, so 
he is just getting started in that mode.
    As you acknowledged, in the other good news category, the 
NRC was recognized as the best place to work in Federal 
Government. It was my pleasure to accept the award on behalf of 
the Agency. While I certainly appreciated the honor of being 
the one to formally accept this award, I did so only on behalf 
of my fellow Commissioners, our managers and supervisors, and 
our many fine employees, all of whom really deserve the credit.
    Mr. Chairman, the Commission has submitted written 
testimony to the committee. In the interests of brevity, let me 
just provide a synopsis of some of the key points.
    As the committee well knows, the principal challenge facing 
the NRC today is maintaining the highest standards of 
regulatory oversight with regard to existing reactors, while 
also preparing for the expected revival of the commercial 
nuclear power industry in the United States.
    Of the 104 licensed reactors in the United States, the NRC 
has authorized license extensions for 48, and applications for 
license extensions for an initial 8 reactors are under review. 
Further, we expect to receive applications to renew the 
licenses of 10 more reactors between now and the end of fiscal 
year 2008. Ultimately, it is expected that almost all licensed 
reactors will eventually apply for renewal.
    The NRC has also been actively overseeing the addition of 
1,350 megawatts of nuclear generating capacity in the U.S. 
supply by this summer. This includes the reactivation of TVA's 
Browns Ferry Unit 1 plants and the authorization of a number of 
power up-rates for other reactors.
    The NRC has been working to develop effective and efficient 
licensing review strategies and processes to support the 
renewed interest in constructing new nuclear powerplants. The 
advent of standardized design certification, early site 
permitting, and combined operating licenses has contributed 
substantially to the feasibility of new nuclear projects in the 
United States.
    Moreover, the NRC has been updating the regulatory 
infrastructure needed to review and approve new applications, 
including issuance of extensive guidance for applicants.
    On April 11, 2007, the Commission approved the final rule 
updating Part 52, subject to changes that the staff is now 
incorporating in the final rule language. In the area of 
reactor security, NRC has significantly increased its ability 
to provide effective oversight at power reactor facilities, 
including more realistic force-on-force exercises.
    We have also just proposed a rule that would require each 
applicant for new reactor designs to assess how the design, to 
an extent practicable, can have greater built-in protections to 
avoid or mitigate the effects of a large commercial aircraft 
impact, making them even more resistant to attack. This is the 
most recent step initiated by the NRC after September 11, 2001, 
to improve the security of reactors and supplements plans and 
strategies already in place to respond to a wide range of 
events, including the impact of an aircraft.
    Later this year, we expect to receive the first application 
for new reactors to be quickly followed, we are told, by about 
18 more applications covering, as you indicated, 27 reactors. 
We also have six others that are in the planning process.
    In addition, the NRC is now reviewing applications for a 
mixed oxide fuel fabrication facility and a new centrifuge 
uranium enrichment plant. Reviewing a license application for 
the Yucca Mountain waste repository will also represent a 
tremendous amount of work, assuming DOE submits its application 
in June 2008.
    In preparation for our expanded workload, the NRC has 
already increased personnel by 280 since the beginning of 
fiscal year 2006, and we will add approximately 200 staff 
annually through 2008.
    We are also striving to secure additional space to 
alleviate current cramped conditions. While this expansion 
progress is still ongoing, I should note that it has been made 
possible by the successful outcome of the continuing 
resolution. We appreciate the funding Congress is providing for 
us to carry out our critical public mission.
    Mr. Chairman, my fellow Commissioners and I understand the 
challenges we face in the licensing of new reactors, while 
continuing our rigorous oversight of existing reactors and 
nuclear materials. We look forward to working with the members 
of the committee so that we may faithfully perform the duties 
entrusted to us by the American people.
    Mr. Chairman, this concludes my opening statement. I ask 
that my written testimony be entered into the record.
    Thanks very much.
    [The prepared statement of Mr. Klein follows:]
  Statement of Dale E. Klein, Chairman, Nuclear Regulatory Commission
                              introduction
    Mr. Chairman and members of the subcommittee, it is a pleasure to 
appear before you today to discuss the Nuclear Regulatory Commission's 
budget and programs. On behalf of the Commission, I thank you for your 
continued support of the NRC's critical work to protect public health 
and safety.
    We face many complex issues, some familiar and many new, involved 
in the resurgence of interest in nuclear energy in this country and 
around the globe. This renewal of interest in building new nuclear 
power plants means that my fellow Commissioners and I face a much 
different set of challenges than many of our predecessors.
    For many past NRC Chairmen and Commissioners, efforts were 
exclusively focused on maintaining the safety and security of operating 
reactors and preparing for the decommissioning of those reactors as 
their licenses expired. While the safety and security of our existing 
licensees remains our highest priority, the Commission is now also 
facing new challenges. Growing electricity demands and environmental 
concerns have caused the U.S. electricity industry once more to include 
nuclear facilities in their plans for future generating capacity. The 
Congress, in the Energy Policy Act of 2005, acted to facilitate the 
necessary planning and financing process for new plants.
    Our current and potential future workload is heavily weighted 
toward not only maintaining the safety and security of existing 
facilities and nuclear materials users, but also processing reactor 
license renewals, power uprate requests, early site permits, advanced 
reactor design certifications, and applications for combined licenses 
(COL). The first influx of COL applications is expected to arrive at 
the NRC later this year. The NRC has also been actively overseeing the 
addition of 1350 megawatts of nuclear generating capacity to the U.S. 
supply by this summer through reactivation of TVA's Browns Ferry Unit 1 
plant and authorization of a number of power uprates for other 
operating reactors.
    We face a daunting future workload if industry predictions for new 
plant applications hold true, but the Commission is confident that the 
NRC is up to the task. Our Strategic Plan includes the following 
objective:
    Enable the use and management of radioactive materials and nuclear 
fuels for beneficial civilian purposes in a manner that protects public 
health and safety and the environment, promotes the security of our 
Nation, and provides for regulatory actions that are open, effective, 
efficient, realistic, and timely.
    The NRC is committed to living up to every word of that objective. 
Our actions will be open and timely because this fosters public 
confidence, and we will value input from all stakeholders. The 
continued operation of existing plants and the development of new 
nuclear facilities in the U.S. depends upon a safety record that merits 
public confidence in the NRC. We are making every effort to ensure that 
our actions are effective, efficient, and realistic. We are putting 
into place improved processes and clear guidance to our licensees that 
will enable us to move applications and other regulatory requests, 
rulemakings, and other activities forward with more dispatch.
    I have frequently said since assuming the Chairmanship that my 
vision for the NRC is a simple one. We must be a strong regulator. We 
will hold our licensees accountable. We will articulate our 
requirements clearly. We will be demanding and we will be responsive to 
their legitimate needs and concerns. All stakeholders, the nuclear 
industry, the financial community, and especially the public, must be 
made aware of the status and progress of issues of interest to them.
    Looking forward, there are two pinch-points for future growth in 
the nuclear sector--manufacturing capacity and human capital. Notably 
not on that list is licensing. If industry does its job and presents us 
with quality applications, the NRC will require less time to complete 
our review. Show us quality and clarity, we tell our applicants, and 
the NRC will show timeliness.
                  currently licensed nuclear reactors
    My fellow Commissioners and I firmly believe that the continued 
safe and secure operation of currently licensed nuclear reactors is 
crucial to the future of nuclear energy in this country. Our most basic 
regulatory charge is protection of public health and safety, and we 
cannot and will not allow activities aimed at future reactor 
applications to dilute our focus on the oversight of operating 
reactors.
    The creation of the Office of New Reactors, with its exclusive 
focus on reviewing new applications, ensures that the Office of Nuclear 
Reactor Regulation will maintain its focus solely on the safety of 
existing plants. We continually monitor performance at each plant and 
also monitor industry performance and events to identify any adverse 
trends. Our Regional office staff and the resident inspectors at every 
operating U.S. nuclear power plant are vital contributors to this 
process and reinforce our commitment to safety.
    Our Reactor Oversight Process (ROP) is a flexible, risk-informed 
process that uses a variety of tools to evaluate individual plant 
performance. Performance is measured by a combination of objective 
performance indicators and the findings of the NRC inspection program. 
The process focuses on plant activities most important to safety and 
increases the level of oversight on any elements that appear to be 
declining. The ROP is assessed and improved every year as a result of 
our commitment to a continuous improvement program.
    The 103 currently operating commercial nuclear power plants are 
placed into five performance categories, with category 1 being the best 
ranking and category 5 indicating unacceptable plant performance for 
which the NRC has ordered the plant to be shut down. The amount of 
oversight a plant receives increases as its performance ranking 
decreases. We recently completed our 2006 annual plant performance 
assessments, and the results are available on our website 
(www.nrc.gov). It is important to note that no plants are listed in 
category 5.
    The NRC's activities to support existing licensees also include the 
review of significant licensing actions each year, such as improved 
standard technical specifications, power uprates, license transfers, 
and quality assurance. Our reactor license renewal process continues to 
work smoothly. Of 104 licensed reactors in the U.S., the NRC has 
authorized license extensions for 48, and applications for an 
additional eight reactors are under review. We expect to receive 
applications to renew the licenses of 10 more reactors between now and 
the end of fiscal year 2008, and that almost all licensed reactors will 
eventually apply for renewal.
    In addition, our review of power uprate requests remains timely. 
The NRC has been processing licensee power uprate requests since the 
1970's as a way to safely increase the power output of their plants. 
The NRC staff has approved 113 such applications to date. As a result, 
approximately 4,900 megawatts-electric (MWe) in electric generating 
capacity have been added to the Nation's electrical grid. This is 
equivalent to about 4.9 nuclear power plant units. The NRC currently 
has ten additional uprate applications under review, and an additional 
10 applications are expected through Fiscal Year (FY) 2008. In April 
2007, the NRC staff surveyed nuclear power plant licensees to determine 
whether they planned to submit additional power uprate applications 
over the next 5 years. Based on this survey, licensees plan to request 
power uprates for 28 nuclear power plants over the next 5 years. If 
approved, these power uprates will result in an increase of about 1,473 
MWe in electrical generating capacity, or roughly 1.5 nuclear power 
plant units. Furthermore, on January 16, 2007, the Commission 
authorized the Regional Administrator, Region II, to permit the restart 
of Browns Ferry Unit 1 once the licensee has accomplished all items 
identified for completion prior to reactor startup and those items have 
been confirmed as satisfactory by the NRC staff. On March 6, 2007, the 
NRC staff completed its review of the Browns Ferry Unit 1 uprate 
application. This completes the major licensing activities required for 
the restart of Browns Ferry Unit 1, which has been shut down since 
1985. This week, the NRC is conducting confirmatory inspections prior 
to restart. The planned restart of Browns Ferry Unit 1 will add an 
additional 1153 MWe of generating capacity to the Nation's power grid 
in time for the peak summer load.
    Our proposed fiscal year 2008 budget includes resources to develop 
and maintain the technical tools and expertise needed to support 
regulatory decisions involving operating reactors, such as those 
governing power uprates, license renewals, analysis of aging and 
integrity of reactor systems, security assessment and mitigating 
strategies, radiation protection, effectiveness of inspections, 
evaluation of operation experience, and event readiness.
                              new reactors
    The NRC's fiscal year 2008 budget includes $217 million for new 
reactor activities resulting from the renewed interest in constructing 
nuclear power plants. Specifically, the NRC will conduct pre-licensing 
and licensing reviews consistent with projected industry schedules. The 
nuclear industry is projecting submittal of at least 18 COL 
applications to the NRC over the next 2 years for at least 27 new 
nuclear power reactors. Appendix 1 to this testimony provides a list of 
the expected new nuclear power plant applications. In fiscal year 2008, 
the NRC expects to begin conducting the safety, security, and 
environmental reviews of COL applications. In fiscal year 2008, NRC 
will continue to develop the construction inspection program. The NRC 
will conduct technical reviews and mandatory hearings associated with 
two early site permit (ESP) applications and review three standard 
design certification applications. We will continue to update the 
agency's regulatory infrastructure, and research activities will be 
conducted to support reviews of the COL applications and new reactor 
designs. Research will also focus on developing tools, data, and 
expertise applicable to a broader range of reactors, including those 
under consideration for the Department of Energy's (DOE's) Next 
Generation Nuclear Plant Project.
    We expect that the first COL application will come as early as late 
October of this year, although it is not certain from which utility, 
since the number of applications and expected submittal dates change 
frequently. However, I assure you we are not just passively waiting. We 
are actively preparing. One example of our efforts in this area is the 
review of early site permits. The staff has issued two ESP's and is 
actively reviewing two additional ESP applications. The staff is also 
engaged in pre-application coordination with utilities that have 
announced their commitment to apply for a COL. This coordination, in 
terms of the expected quality and content of the application, will 
result in a much higher level of quality of incoming applications, 
which will in turn result in a more efficient NRC review. NRC staff has 
been working to develop effective and efficient licensing review 
strategies and processes. We have made the necessary organizational 
changes and are in the process of hiring the staff and providing them 
the resources to review the applications thoroughly and expeditiously.
    With the creation of the Office of New Reactors, we will provide 
dedicated technical and administrative resources for new reactor 
reviews. In addition, we have created a single, dedicated construction 
inspection organization located in the NRC's Region II office in 
Atlanta. A majority of the new reactors will be located for the 
Southeast.
    The NRC also is updating the regulatory infrastructure needed to 
review and approve new applications, including issuance of extensive 
guidance for applicants. We completed updating the existing regulatory 
guides in March 2007, using an accelerated schedule to allow the 
industry to use the revised guides in preparing their applications and 
for other stakeholders to receive them in a timely fashion. We also 
developed a combined license application regulatory guide, which is 
currently available in draft form and will be finalized in coordination 
with the final rulemaking on Part 52.
    On April 11, 2007, the Commission approved a final rule updating 
Part 52, subject to changes that the staff is now incorporating into 
the final rule language. The Commision's decision is available to the 
public. The Part 52 rule is expected to be issued in mid July 2007. Our 
new combined licensing procedure, along with limited work authorization 
rules, will make the new reactor licensing process more effective and 
efficient. The changes provide applicants greater flexibility by 
providing more licensing options, allowing them to submit license 
applications in phases. NRC's use of a design-centered review approach 
will use, as much as practicable, a (one issue-one review-one position( 
strategy that recognizes that the new reactor designs to be used are 
standardized and that issues common to multiple applications require 
less NRC review effort once they have been resolved for the initial 
application.
    A new limited work authorization rule will remove the need for 
applicants to obtain NRC approval for pre-construction activities that 
do not have a nexus to radiological health and safety or the common 
defense of security. These estimates include site clearing, 
transmission line routing, road building, and construction of warehouse 
and shop facilities.
    NRC also revised its standard review plan for the review of COLs, 
focusing primarily on capturing current accepted guidance and ensuring 
consistency with the Part 52 licensing processes. The revised standard 
review plan was issued and will allow prospective applicants to comply 
with the regulatory requirement that they perform an analysis using the 
guidance in effect 6 months prior to the docket date on an application.
    The NRC also has been working with the Department of Homeland 
Security (DHS) to establish a framework for coordination between the 
two agencies concerning the security and emergency preparedness areas 
that must be addressed during the approval process for new reactors.
    The Part 52 process evolved from 30 years of lessons learned in 
licensing today's operating reactors. However, there are still aspects 
of the COL process that cannot be known until it is tested through 
completion of an actual application. While the NRC acknowledges that we 
are entering new territory, we are nevertheless attempting to provide 
as much predictability as possible while ensuring maximum regulatory 
stability as this technologically complex industry begins to move to 
its next generation of reactors.
                      high-level waste repository
    The DOE has stated that it expects to submit its high-level waste 
repository license application to the NRC in FY 2008. Based on this 
expected application date, the NRC's fiscal year 2008 budget provides 
funds for pre-licensing activities, including emergent issues and 
inspection activities addressing repository design confirmation, pre-
closure safety, performance confirmation, and the effectiveness of the 
DOE quality assurance program. Additionally, the NRC will review 
designs for transport and aging (storage) casks for use with the DOE 
transport, aging, and disposal canister-based system.
                           nuclear materials
    The NRC fiscal year 2008 budget includes $160 million to conduct an 
effective regulatory program for 12 fuel cycle facilities, nine 
greater-than-critical-mass facilities, two proof-of-production 
operations for future enrichment facilities, and approximately 4,350 
licenses for radioactive materials used for medical, industrial, and 
academic purposes, including oversight of 34 Agreement States that 
license an additional 17,600 materials users. This includes 
implementation of NRC's responsibility under the Energy Policy Act of 
2005 to regulate additional byproduct materials users. The NRC will 
also continue to review an application for possession and use of 
licensed material at the mixed-oxide fuel fabrication facility and 
implement our inspection program for this facility in South Carolina. 
The NRC understands that it will likely have a role to ensure that 
commercial facilities proposed under the Global Nuclear Energy 
Partnership are both safe and secure. We are working with DOE on a 
Memorandum of Understanding that would allow NRC to understand better 
the technology that is intended to recycle spent fuel and significantly 
reduce the amount of waste that would have to be sent to a permanent 
repository.
    FY 2008 resources support decommissioning licensing and inspection 
activities at approximately 14 power and early demonstration reactors, 
11 research and test reactors, and approximately 18 complex materials 
and fuel facilities sites. The NRC will continue its oversight of the 
West Valley Demonstration Project, as necessary, to support the 
implementation of the West Valley Demonstration Project Act.
    The NRC's fiscal year 2008 budget includes $2 million to provide 
oversight of certain DOE waste determination activities and plans 
consistent with the NRC's responsibilities in the Ronald W. Reagan 
National Defense Authorization Act for Fiscal Year 2005. This act 
requires DOE to consult with the NRC on its waste determinations for 
facilities in South Carolina and Idaho, and directs NRC to monitor DOE 
disposal actions to assess compliance with the performance objectives 
outlined in regulations.
                                security
    Since 1973, our agency has required licensed power reactors to have 
robust security programs and licensed nuclear material to be protected. 
Over the past 5 years, the NRC has required many security enhancements 
at licensed power reactors and Category I fuel cycle facilities. Our 
licensees now have increased patrols, stronger and more capable 
security forces, additional physical barriers, greater standoff 
distances for vehicle checks, more restrictive site access controls, 
enhanced emergency preparedness and response plans, enhanced 
coordination with law enforcement authorities, and many other 
heightened security measures. On a voluntary basis, licensees report 
suspicious activities occurring at or near their facilities. In 
addition, NRC intelligence analysts screen Intelligence Community 
threat reporting on a daily basis, looking for threats to NRC licensed 
facilities and materials as well as for changes in the general threat 
environment that could affect the security posture at the facilities we 
license. This information is analyzed within the context of other 
threat data and is shared with DHS and the Federal Bureau of 
Investigation (FBI). The Commission receives this information on a 
regular basis.
    Nuclear power plants must, with high assurance, defend against the 
NRC's Design Basis Threat (DBT). The NRC supplemented its DBT rules by 
issuing orders in 2003 and 2006, and recently completed a public DBT 
rulemaking to codify and update enhancements implemented in recent 
years. The latest rule, among other features, meets the NRC's 
obligation under the Energy Policy Act to initiate and complete a 
rulemaking revising the DBT and to consider the 12 factors specified in 
the law. Another pending rulemaking would revise and update physical 
protection requirements.
    The NRC also has significantly increased its ability to provide 
effective oversight of security at power reactor facilities. In 2000, 
NRC inspectors spent about 40 staff-weeks a year directly inspecting 
security. By 2003, the NRC was spending over 200 staff-weeks per year 
on security.
    In addition, the NRC now conducts much more realistic force-on-
force exercises as a part of its security inspection program, in which 
a highly trained mock adversary force simulates an attack on a 
facility. This program was officially implemented in November 2004. 
Since then, NRC has conducted more than 51 of these full-scale 
exercises and continues to work, using lessons learned, to make the 
exercises even more realistic. We also have required power plants to 
add more training and higher qualification standards for security 
personnel and to increase substantially the numbers of security 
personnel, among other measures.
    In our security efforts, NRC coordinates extensively with the DHS, 
FBI, and other Federal entities in integrating nuclear security efforts 
into national security planning. That raises the subject of aircraft. 
For the current operating reactors, the NRC ordered nuclear power plant 
licensees to develop specific plans and strategies to respond to a wide 
range of events, including the impact of an aircraft. Licensees have 
taken actions as a result of the NRC Advisories and Orders to mitigate 
the effects of a September 11-type aircraft attack. Even before these 
actions, nuclear power plants were designed to protect public health 
and safety. The plants achieved this through their robust containment 
buildings, redundant safety systems, highly trained operators and 
maintenance staff, stringent security plans, and armed security 
personnel. These plants are among the strongest and most difficult 
structures to break into in the country. They are designed to withstand 
extreme events, such as hurricanes, tornadoes, and earthquakes.
    The NRC has used defense-in-depth to define its safety philosophy 
at nuclear power plants. Defense-in-depth means there are multiple 
measures that could prevent an accident or lessen the effects of damage 
if a malfunction or accident occurs at a nuclear facility. The NRC's 
safety philosophy ensures that the public is protected and that 
emergency plans for areas surrounding a nuclear facility are well 
thought out and workable. In that regard, NRC-licensed nuclear power 
plants and other facilities have detailed, well coordinated, and tested 
emergency response plans. These plans work to reduce the impact on the 
public in the event of a radiation release.
    The NRC regularly communicates with other Federal agencies, 
including the DHS, the Federal Aviation Administration (FAA), and the 
Department of Defense (DOD), which have acted on specific occasions to 
protect airspace above nuclear power plants. The Aviation and 
Transportation Security Act of 2001 also provides additional protection 
against air attacks on all industrial facilities, both nuclear and non-
nuclear, by strengthening aviation security.
    The Commission has been engaged in discussions regarding the extent 
to which new plants should incorporate features against the impact of a 
commercial airliner. These new reactor designs will have improved 
safety features, such as spatially separated redundant safety systems, 
passive safety systems that do not require electrical power, and 
features to mitigate beyond design basis severe accidents. Such 
features will also clearly improve a plant's ability to resist and 
mitigate an aircraft crash. This matter is still under Commission 
review, and a decision is expected shortly.
    A final note on the security of nuclear materials: NRC is 
developing a National Source Tracking System (NSTS) that will improve 
controls on risk-significant radioactive materials. We will continue to 
maintain an interim inventory of radioactive sources of concern 
throughout the U.S., updated annually, until the NSTS is fully 
implemented.
                        international activities
    The NRC is ensuring that U.S. nuclear regulatory activities are 
consistent with, and reinforce, best international practices. The NRC 
is helping to ensure uninterrupted legitimate commerce by imposing 
enhanced controls over the export/import of nuclear facilities, 
components, and nuclear and byproduct material. The NRC supports the 
U.S. Government's broader policy and non-proliferation objectives 
through participation with the International Atomic Energy Agency and 
the Nuclear Energy Agency.
    Fabrication of a significant percentage of the major components to 
be used in the construction of new reactors in the U.S. and 
internationally will be done by international manufacturers. NRC is 
actively engaged, on both a bilateral and multilateral basis, with its 
counterpart regulatory authorities in these countries to enhance 
sharing of relevant information, experience, and expertise to help 
ensure the legitimacy and quality of those components.
                         agency infrastructure
    Before addressing our infrastructure and human capital needs, I 
want to comment on the quality of the NRC staff. I have been at the 
agency about 10 months now, and I am extremely impressed. The agency is 
staffed with highly professional and dedicated workers who take very 
seriously the mission of protecting people and the environment. If it 
means long days, nights, weekends--they are willing to make that 
commitment to the American people because of the critical importance of 
the work done at the NRC.
    That said, the volume of new work, coupled with our important 
ongoing responsibilities, presents an enormous challenge to the NRC. We 
are engaged in a vigorous effort to locate talented professionals to 
augment our workforce and to secure for them the additional workspace, 
information technology, and support services to allow them to do their 
jobs and allow the NRC to meet all of our commitments.
    The NRC uses an automated strategic workforce planning tool to 
quantify staff capabilities and to identify critical skill and 
knowledge needs. We are then able to determine where gaps exist and 
recruit for those skills. The NRC is gaining staff at a pace allowing 
us to replace losses and hire additional staff to support new work. Our 
goal in fiscal year 2006 was a net gain of around 150 personnel. We 
exceeded that goal and are well on our way to meeting our FY 2007 
hiring goal of a net gain of around 200 personnel.
    Hiring is only part of the process, however. Retention is another 
challenge. The NRC has been rated as the best place to work in the 
Federal Government, and we intend to work hard to keep that first-place 
rating by providing a superior work environment for new hires. At our 
current staffing levels, NRC headquarters is filled to capacity, and we 
have a critical need for more space. Accommodating the growth of the 
NRC, and the associated requirement for additional space, is essential 
to meeting the country's growing energy needs while maintaining the 
NRC's superlative record of ensuring safety and reliability of nuclear 
power plant operation and the safe use of radioactive material. We have 
implemented a plan, with the support of the Office of Management and 
Budget (OMB) and the General Services Administration (GSA), to procure 
additional permanent space near our White Flint Complex and are hopeful 
that GSA will forward our space prospectus to Congress by the end of 
this month. While our long-term goal is a consolidated headquarters 
complex, we have procured interim space at two separate nearby 
locations through the GSA and are seeking a third to relieve our 
cramped quarters as we expand our workforce.
    We are taking steps to ensure that the expected new and current NRC 
workforce has the tools to do its job. We are making a substantial 
investment to upgrade our Information Technology capabilities and 
provide the IT equipment necessary to support both new hires and the 
three additional locations we procured to meet our immediate space 
needs. For many years, the NRC has postponed improvements in the area 
of office automation and modernization of our legacy systems. We cannot 
afford to neglect this critical infrastructure component any longer, 
and this budget supports upgrades, such as the development of a 
collaborative electronic workspace for the review of new reactor 
license applications and the ability to conduct hearings in an 
electronic environment.
    We expect to have a critical hiring need for at least the next 4 
years. Although we are positioned to meet our hiring challenges over 
the next couple of years, it will be a continuing challenge to maintain 
our recruitment momentum. In the 2008-2009 timeframe, we expect hiring 
competition from utilities and nuclear manufacturers to intensify as 
they begin to staff up for construction of new nuclear plants. In 
addition, we face competition from other government agencies, the 
national laboratories, and academia.
    The Commission's opinion is that this sharp increase in the need 
for professional and skilled craft workers could have wide-ranging and 
possibly unforeseen effects. The Commission believes that the NRC is 
well positioned to meet its own needs, but we are concerned that 
nuclear industry leaders may not be taking the problem seriously 
enough. To obtain regulatory approval, industry leaders must remember 
that new plants must not only be technically viable and robustly 
constructed, but must also be staffed by individuals competent and 
knowledgeable enough to operate them in a manner that fully protects 
public health and safety.
    The Commission is equally concerned about the adequacy of the 
Nation's manufacturing capability as we approach the potential 
construction of 27 or more nuclear plants in the U.S. For example, 
there is only one U.S.-based manufacturer of some (not all) of the 
major components and systems needed to build a nuclear plant. No U.S. 
company builds commercial nuclear power plant reactor vessels.
    The companies that will make the multi-billion-dollar orders for 
the next new plants must make critically important decisions as to 
where to buy their systems and components. Much of the technological 
and manufacturing capability to supply their needs now rests outside 
the United States. To compound the situation, many of the world's 
nuclear manufacturers are operating at capacity. Right now, the lead-
time for delivery of reactor vessels is upwards of 4 years, and other 
key components have equally long backlogs. In the face of those long 
lead times, nuclear projects will need to get in line and scour the 
globe for available components and materials.
    The NRC has rigorous inspection programs in place needed to ensure 
the quality and authenticity of the components that go into plants 
built in the United States. Since many of the components will be 
manufactured outside the United States and the implementation of the 
inspection programs will necessitate that our inspectors perform 
inspections in the manufacturing countries, greater international 
cooperation will be essential.
                               conclusion
    Mr. Chairman, there are many more topics we could address today, 
and if we have neglected any topics of the Subcommittee's interest, we 
would be pleased to respond to your questions.
    Let me just say in closing that the Commission remains dedicated to 
protecting public health and safety. Our conduct of all of our 
activities flows from that basic commitment. We understand the 
challenges we face in the licensing of new reactors while continuing 
our rigorous oversight of existing reactors and nuclear materials, and 
we are prepared to meet these challenges in an effective and timely 
manner. We ask for your continued support of the NRC budget to help us 
meet these challenges. My fellow Commissioners and I look forward to 
working with the Committee on these and other issues during this 
session and in years to come.
[GRAPHIC] [TIFF OMITTED] T5928A.001

 Responses by Dale E. Klein to Additional Questions from Senator Boxer
    Question 1. In January, the NRC approved a final rule enhancing the 
``design basis threat,'' or DBT, describing the terrorist and sabotage 
threats against which a nuclear plant needs to defend.
    Response. The final rule was affirmed by the Commission on January 
29, 2007 and published in the Federal Register on March 19, 2007 (72 
Fed. Reg. 12705).

    Question 2. Though it did not include a commercial airplane crash 
scenario in its DBT rulemaking, NRC directed nuclear plants to address 
impacts from fires and explosions potentially caused by a large plane 
crash. Is it the case that the protection the Commission is offering 
the public from an aircraft crash is ensuring the ability for the plant 
to respond to the aftermath of such a crash?
    Response. I would like to begin the response to this question by 
describing all the different rulemakings underway or recently completed 
that bear on power reactor security.
    The first is the final design basis threat (DBT) rule which you 
mention (10 CFR 73.1). In that rule the Commission did not include 
commercial aircraft attacks in the DBT because the DBT is the threat 
against which licensees must be able to defend with their own resources 
with high assurance. The weapons needed to defend against terrorist use 
of a commercial aircraft, such as surface-to-air missiles or fighter 
aircraft, clearly are not available (and should not be available) to 
licensee security forces.
    The second final rule on which NRC has completed action is our 
rewrite of 10 CFR Part 52, the rules for licensing new nuclear 
reactors. That rule at 10 CFR 52.10 reiterates the ``enemy of the 
state'' provision that applies to current plants, 10 CFR 50.13.
    The third final rule on which the Commission has completed action 
is 10 CFR Part 26, the Fitness for Duty rule. That rule contains work-
hour restrictions for licensee security personnel, which will replace 
an April 2003 Order when fully implemented. The security force work-
hour restrictions have won praise from the Project on Government 
Oversight, which first brought the issue of security officer fatigue to 
the Commission's attention in a September 2002 report.
    The fourth rule, a rewrite of 10 CFR 73.55 and related provisions, 
is at the stage of considering public comments on a proposed rule 
issued last October. It incorporates all of the changes made by the 
Commission for reactor security following 9/11 through various Orders 
plus some additional measures, regarding for example, safety-security 
interface issues. When completed, it will codify in rule text the 
Commission's reasonable assurance of adequate protection standard for 
security at both current and future power reactors. Of most relevance 
to some of your questions, it will codify as part of the licensee's 
integrated response plan, section B.5.b of the February 25, 2002 Order 
relating to coping with large fires and explosions that could be 
generated by a large commercial aircraft impact (at Part 73, Appendix 
C, Section II (j)(2)(ii)).
    The last rule, on which the Commission gave staff its direction on 
April 24, 2007, is the rule relating to large, commercial aircraft 
impact assessments for new reactor designs to be included in 10 CFR 
Part 52. It will be issued as a proposed rule for public comment once 
the staff completes the direction given by the Commission in its April 
24, 2007 Staff Requirements Memorandum.
    With that background, let me now answer your first question.
    The industry, at the direction of NRC and with insights gained from 
NRC research, identified and is implementing mitigating strategies, 
using readily available means, to respond to large fires and explosions 
from any source to provide reasonable assurance that public health and 
safety will be maintained. In addition, NRC has a Memorandum of 
Understanding with NORAD/NORTHCOM that will give warning to power 
reactors of a potential aircraft attack. Imminent threat procedures are 
in place at all operating reactors to ensure that upon NORAD warning, 
the plant can be placed in the safest possible configuration.
    Consistent with the Enemy of the State rule, 10 CFR 50.13, which 
was promulgated in September 1967 to clarify licensee responsibilities 
in cases such as a Cuban air force attack on the Turkey Point reactor 
south of Miami, the Commission believes the primary responsibility to 
defend against terrorist aircraft attacks must remain with the Federal 
government and notes that DHS, DOD and other agencies have put 
extraordinary measures in place since 9/11 to prevent terrorist use of 
large commercial aircraft. The NRC has ensured that should those 
measures ever fail, and should a terrorist choose a nuclear power plant 
as opposed to other targets with potentially far greater public health 
and safety impact, the possibility of significant releases affecting 
public health and safety has been reduced to very low levels. In short, 
NRC has ensured that power reactor sites are by far the best protected 
of all critical infrastructure sites, and are well prepared to mitigate 
the consequences of large fires and explosions.

    Question 3. As a result of your action on April 24, 2007, the 
Commission will propose a rule that requires companies to show how or 
whether their designs for new nuclear reactors would survive in the 
event of a commercial aircraft crash. What will happen if the company 
discovers that, if a commercial plane hits a plant, the reactor 
containment will be breached, or the spent fuel pool and the buildings 
housing the important safety functions would be damaged? How will the 
NRC respond to such information under your proposal?
    Response. The critical sentence in the proposed rule text for 
answering your question reads as follows: ``The application shall 
describe how such design features, functional capabilities and 
strategies, to the extent practicable, avoid or mitigate the effects of 
the applicable aircraft impact with reduced reliance on operator 
actions.''
    The practicability standard had also been included in the NRC 
staff's version of the rule which the Commission chose not to pursue. 
As explained in the Chairman's vote, the intent of the ``to the extent 
practicable'' term is ``to allow designers to incorporate design 
features which are realistically and reasonably feasible from a 
technical engineering perspective. This allows designers to evaluate 
potential competing technical factors, such as the response to 
earthquakes and passive safety systems, while at the same time 
addressing aircraft impacts.''
    NRC staff will independently evaluate each design. Should there be 
differences with an applicant as to the practicability of certain 
design features, functional capabilities or strategies, they will be 
resolved in the design certification rulemaking for that applicant's 
design.
    All Commissioners agree on the characteristics of the applicable 
aircraft impact to be analyzed. Four Commissioners believe that such a 
large aircraft impact should remain a beyond-design-basis event, to be 
treated in a fashion compatible with its approach to beyond-design-
basis severe accidents. As the Chairman noted in his explanatory text, 
for such accidents the Commission's approach (at 10 CFR 50.34 
(f)(1)(i)) is to require applicants to ``seek such improvements in 
reliability of core and containment heat removal systems as are 
significant and practical and do not impact excessively on the plant.''
    Because Commissioner Lyons independently proposed one of 
Commissioner Jaczko's five additional acceptance criteria, the 
Commission instructed the staff in its April 24, 2007 Staff 
Requirements Memorandum to ask for public comment on that criterion. 
The additional criterion beyond practicability would read: ``The 
application shall also describe how such design features, functional 
capabilities and strategies will provide reasonable assurance that any 
release of radioactive materials to the environment will not produce 
public exposures exceeding 10 CFR Part 100 guidelines.'' Should the 
final rule include that criterion in addition to the practicability 
criterion, the NRC staff will also evaluate each applicant's design 
against that criterion in the design certification rulemaking for that 
design.

    Question 4. DOE now intends to submit the final Yucca Mountain 
license application to the NRC in June 2008. DOE will not have final 
designs for actual Yucca Mountain facilities, either those above ground 
or below ground. DOE won't have those designs completed until long 
after the agency submits the license application to the NRC. DOE 
insists that preliminary designs are adequate for NRC to approve this 
complex one-of-a-kind nuclear waste facility. Does NRC share this view?
    Response. The NRC does not share this view. The NRC expects the 
Yucca Mountain License Application to contain sufficient information to 
allow review of DOE's preclosure safety analysis and total system 
performance assessment model. Facility design information is the most 
important input to the preclosure safety analysis. The information 
should contain sufficient detail to understand the preclosure 
facilities and operations, including their size, location, 
arrangements, purpose, and potential hazards. Adequate information on 
design and operation of the facilities should be provided to enable 
determination of compliance with the performance objectives and 
requirements of 10 CFR Part 63, including identification of structures, 
systems, and components that are important to safety. Consistent with 
NRC's licensing processes for other areas that we regulate, final 
detailed designs should not be required to make the necessary safety 
demonstration per our regulations. In the March 27, 2007 NRC/DOE Senior 
Quarterly Management Meeting, NRC reiterated the acceptance criteria 
requirements in 10 CFR Part 63 and the Yucca Mountain Plan, Appendix B, 
that DOE must address in its license application.

    Question 5. DOE's computer model for the Yucca Mountain repository, 
known as the Total System Performance Assessment simulation program, 
will form the basis for DOE's license application. It is an extremely 
complex program that runs on supercomputers because it is so large. How 
will the NRC duplicate or confirm the reliability of model's data, and 
how will this impact NRC's ability to review the license application?
    Response. In general, the NRC develops its own computer codes to 
independently evaluate and perform audit calculations against the 
applicant's submittal to confirm the results. In the case of Yucca 
Mountain, NRC has developed the Total-system Performance Assessment 
(TPA) code that can run on desktop computers. The staff has 
successfully used the TPA code during the pre-license interactions to 
identify potential safety issues that DOE needs to address in the 
forthcoming license application.
    In addition, the NRC expects DOE to support its TSPA code in a 
traceable and transparent manner that will allow NRC to review the 
technical bases of the models and parameters relied upon to demonstrate 
compliance with 10 CFR Part 63. NRC review of DOE's TSPA code 
assessment will focus on confirming that: (1) adequate scenarios were 
evaluated; (2) models and data represent repository performance; and 
(3) resulting dose estimates are accurate. NRC will support this review 
with in-depth evaluation of the scientific and engineering information 
used in the TSPA model. Using this approach, the NRC does not foresee 
any adverse impact on our ability to review a potential application for 
a repository license.

    Question 6. In the absence of an NRC-approved license, could DOE 
start construction of elements of the Yucca Mountain project other than 
the storage facility itself--items such as roads or rail lines to the 
site?
    Response. Yes. The DOE could begin construction of certain elements 
of the Yucca Mountain project that are not part of the geological 
repository operations area such as the roads or rail lines that are 
located outside the geological repository operations area. The DOE may 
not begin construction of a geological repository operations area at 
Yucca Mountain until it has filed a license application and has been 
granted a construction authorization.

    Question 7. Considering new nuclear plant applications, reactor 
license renewals, and the expected Yucca Mountain license application, 
NRC will be engaged in a tremendous amount of uncharted territory 
during the next fiscal year. An increase in fees paid by the nuclear 
industry under the President's budget will finance some of this new 
activity. From what funding source will NRC finance its work on the 
Yucca Mountain license application?
    Response. All Yucca Mountain activities are funded by the Nuclear 
Waste Fund and are not supported by fees collected by the NRC from NRC 
licensees.

    Question 8. In its review of the license application for the Yucca 
Mountain project, how will the Commission consider safety measures that 
DOE proposes to implement hundreds of years into the future? For 
example, DOE is considering requiring ``drip shields'' up to 300 years 
into the future to keep water off waste canisters. In the past, NRC has 
not favorably considered such future actions, does the Commission still 
hold to that view?
    Response. Pursuant to NRC's regulations, DOE must show that the 
proposed repository will comply with the performance objectives in 10 
CFR Part 63 after permanent closure. If DOE files an application and 
NRC accepts the application for review, NRC will begin a thorough 
safety review. At that time, the NRC will evaluate whether DOE's 
proposed design, including reliance on any specific design features or 
components of the engineered barrier system (such as drip shields) 
demonstrate that the repository complies with NRC regulations and 
protects public health and safety and the environment.

    Question 9. I understand that while the NRC has provided assistance 
to the Department of Health and Human Services (HHS) in distributing a 
new pediatric form of potassium iodide to populations living within 10 
miles of a nuclear power plant, the Commission has strongly resisted 
efforts to expand this distribution beyond the 10-mile radius. Is that 
the case? If so, on what basis is the NRC resisting a statutorily 
mandated program?
    Response. The NRC has a well-established and scientifically sound 
framework for nuclear power plant emergency preparedness. This 
framework includes predetermined protective actions for populations 
within the 10- and 50-mile ingestion exposure pathway Emergency 
Planning Zones (EPZs) of commercial nuclear power plants to provide the 
necessary protection for the thyroid gland from radioactive iodine. In 
2001, the NRC revised its emergency preparedness regulations to require 
that States and Tribal governments having populations within 10-mile 
EPZs consider including potassium iodide (KI) as a protective measure 
for the general public as a supplement to sheltering and evacuation in 
the unlikely event of a severe nuclear power plant accident. As further 
elaborated below, it is the NRC's conclusion that expanding the 
distribution of KI beyond the 10-mile EPZs surrounding nuclear power 
plants is unnecessary and would not provide a benefit to the public.
    NRC analyses indicate that in the event of an emergency at a 
nuclear power plant that causes a release of radioactive materials, 
exposure to these materials poses the greatest risk for people closest 
to the plant. The objectives of the predetermined protective actions 
within the 10-mile EPZ, which include sheltering, evacuation, and where 
appropriate, the use of KI, are to mitigate these risks. The population 
at greater distances from the plant may be at risk of exposure to 
radioactive materials by way of ingestion, as opposed to inhalation of 
these materials. Predetermined protective actions for the 50-mile 
ingestion exposure pathway EPZ include interdiction of contaminated 
milk, food, and water as well as protective measures for livestock. In 
January 2004, the National Academy of Sciences (NAS) concluded that, 
``KI is also effective for protection against the harmful thyroid 
effects of radioiodine ingested in contaminated milk and other foods, 
but food testing and interdiction programs in place throughout the 
United States are more effective preventive strategies for ingestion 
pathways.''
    We would note that while the NRC has concluded the expanded 
distribution of KI is unnecessary, we have worked closely with the 
Department of Health and Human Services (HHS) to develop guidelines 
required by the Bioterrorism Act of 2002, for stockpiling and 
distributing KI beyond 10-mile EPZs. Furthermore, the NRC stands ready 
to implement the legislative mandate of the Bioterrorism Act, pending a 
final decision by the Executive Branch on how implementation should 
proceed.

    Question 10. What is your understanding of why HHS has not 
purchased and distributed potassium iodide sufficient for the 
populations living within 20 miles of our nuclear power plants as 
required by the Bioterrorism Act of 2002?
    Response. We believe it would be inappropriate for us to comment on 
this matter because it is the Executive Branch's responsibility, under 
the terms of the Act.

    Qustion 11. Were a nuclear power plant disaster to occur in this 
country, it could occur anywhere in the United States, at multiple 
plants, and circumstances could lead to a plume that would spread the 
disaster well beyond the 20 mile radius of any single nuclear power 
plant. While I am committed to ensuring that every family within a 
broad radius of these nuclear facilities has access to pediatric KI, at 
the very least, would it not make sense for us to be stockpiling 
significant quantities of potassium iodide at Strategic National 
Stockpile (SNS) locations, so that potassium iodide could be quickly 
dispatched to various locations following a disaster and after 
determination of wind direction and other environmental factors had 
been made?
    Response. As discussed in our response to question 9, there are 
existing predetermined protective actions for both the 10-mile and the 
50-mile Emergency Planning Zones (EPZs) that are considered to be the 
most effective actions to take in the event of an emergency that causes 
a radioactive release. Provisions have been made to distribute 
potassium iodide (KI) within the 10-mile EPZ for those states opting to 
include KI as an element of their protective actions, so having 
additional stockpiles would not provide an additional protective 
measure.

    Question 12. The NRC's existing rules prohibit private, off-the-
record contacts between Commissioners and interested parties, such as 
the DOE. These rules are designed to assure fairness and transparency, 
yet I have heard concerns that the NRC is not following them with 
respect to the proposed Yucca Mountain project. What is the NRC doing 
to document its communications with DOE?
    Response. If NRC accepts a license application, NRC procedural 
rules would prohibit DOE or any other interested party to the Yucca 
Mountain proceeding from having any ex parte communications with the 
Commissioners or any Commission adjudicatory employee that is relevant 
to the merits of any contested issue in the proceeding.
    The NRC staff has had extensive pre-application interactions with 
DOE, all in accordance with the staff's open meeting policy and 
procedures. The NRC staff believes that it has in place appropriate 
processes for inclusion of the public and, in response to recent 
stakeholder requests, the staff has invited additional observers to 
some of our onsite meetings between the NRC representatives and DOE.

    Senator Carper. Mr. Chairman, thanks very much for your 
statement and for your leadership here.
    With that having been said, we will recognize each of the 
three Commissioners for roughly 3 minutes. Mr. McGaffigan, we 
will start with you. Thank you.

     STATEMENT OF EDWARD McGAFFIGAN, COMMISSIONER, NUCLEAR 
                     REGULATORY COMMISSION

    Mr. McGaffigan. Thank you, Mr. Chairman.
    I want to start where the chairman ended. I really 
appreciate, and I am sure the whole commission appreciates, the 
efforts that you and Senator Voinovich have put in in the 
January timeframe to get us the budget we needed. I am 
convinced that without that support, we wouldn't have had the 
successful outcome. So I thank you for that.
    I also want to join the members of the committee and 
Chairman Klein in recognizing Commissioner Merrifield's 
service. We have served over 8 years together on the 
commission. I think I am the last remaining dog that actually 
was at Senator Inhofe's first hearing as a Commissioner. I 
think we have had a unique period, and I hope it is followed 
up, but we had a unique period where a group of us served for a 
very long time. We got to understand the problems. We were 
decisive and action-oriented. We worked on the problems. We 
sometimes had to make course corrections, but we stayed long 
enough to see the answers through. I think we have a record of 
great accomplishment. Jeff has contributed enormously to that 
record and I will miss him greatly.
    I am also going to take just a moment to recognize somebody 
perhaps not familiar to the members, but familiar to us on our 
side of the table. Chauncey Starr passed away last week at the 
age of 95, having worked up until the day he died at the 
Electric Power Research Institute, which he founded. Dr. Starr 
was a true giant in the numerous roles he played from the 
Manhattan Project onward for over 73 years.
    The contribution I most want to call attention to is his 
seminal work in the late 1960s on how to think about acceptable 
risk. How to answer the question: How safe is safe enough? 
Unfortunately, the sort of rational analysis of comparative 
risks that Dr. Starr advocated is often absent in public policy 
debates, not only in the nuclear sector, but in many other 
areas as well.
    I will stop here. I look forward to your questions, and I 
wish that we could respond in person to some of the comments 
made earlier. I doubt the time will allow that, but I stand 
ready to meet with any member at any time to discuss your 
concerns.
    Senator Carper. All right, Commissioner McGaffigan. Thank 
you.
    Commissioner Merrifield, a lot of nice things are being 
said about you today. I would like to say flattery won't hurt 
you if you don't inhale. So don't breathe too deeply and you 
should be just fine. All right?

   STATEMENT OF JEFFREY S. MERRIFIELD, COMMISSIONER, NUCLEAR 
                     REGULATORY COMMISSION

    Mr. Merrifield. Thank you, Mr. Chairman. Thank you and I 
thank the members of the committee. It is a pleasure to have 
the opportunity to appear before you today.
    It was about 9 years ago after having served as a counsel 
for this committee that I began my service as a Commissioner at 
the NRC. As I prepare to leave the Agency on June 30, I want to 
say it has been an incredible opportunity to serve this 
country.
    When I first joined the commission, I made a commitment to 
get out and understand this industry and the impact that the 
NRC has on maintaining its safety. During my first 3\1/2\ years 
on the commission, I was able to travel to all 104 operating 
plants in the United States. During almost 9 years I have spent 
on the commission, I have been to 240 of the world's 440 
nuclear power plants in visits to 30 of the 31 countries that 
operate them.
    I would like to take the limited time I have this morning 
to briefly contrast where this industry and the NRC were 
situated in 1998, when I joined the commission, and where 
things stand today.
    In 1998, five nuclear units were on the NRC's watch list, 
and one unit, Millstone Unit 2, was in regulatory shutdown, 
awaiting NRC approval for restart. The NRC had recently issued 
one of its largest fines ever, $2.1 million, for, as Senator 
Lieberman then put it, ``the nightmare associated with the 
three Millstone units.''
    Four other nuclear powerplants had recently ceased 
operation, and DOE's Office of Energy Information was 
postulating the news that as many as 40 percent of the 
remaining plants may shut down by the year 2010. The capacity 
of the nuclear fleet was approximately 78 percent, and many of 
the NRC's then-44 licensees were struggling to maintain 
capacity and safety factors.
    While some utilities spoke about relicensing their 
reactors, the NRC had not yet completed a single 20-year 
license extension. During a hearing that EPA convened in July 
1998 that was referenced by Senator Inhofe, many Senators 
complained that the NRC was neither a predictable nor an 
efficient regulator; that we were not safety-focused; that our 
internal hearing process was a morass; and that we had lost the 
faith of the public.
    The challenges to this Agency were broad and they were 
deep. While the hearing discussed the possibility of new 
reactor orders, no one had a realistic expectation that new 
orders would mature anytime soon.
    Today, we face an entirely different situation. Since the 
year 2000, only one reactor has been placed in regulatory 
shutdown and no reactors are currently operating in that 
situation. No additional reactors have ceased operation, and 
the operating fleet, as was mentioned, will actually increase 
by one with the upcoming restart of Browns Ferry Unit 1 later 
this year.
    Concurrent with an increase in safety, capacity factors 
have been averaging 90 percent over the last 5 years, and 
during my tenure on the commission, we have granted license 
extension to almost half of the U.S. nuclear fleet. We have 
established a solid record as an effective, efficient, and 
transparent regulator. We are more risk-informed. We place less 
focus on minor enforcement issues, and overall we have 
significantly increased our credibility with the public.
    The recent approvals of centrifuge facilities in New Mexico 
and Ohio, which are the first new facilities proposed and 
licensed by the NRC since Three Mile Island, demonstrate the 
success of our efforts to improve the timeliness of our 
internal judicial process.
    The actions we took in response to the terrible events of 
9/11 were immediate and significant. Not only did the 104 
reactors remain the securest element of our civilian energy 
structure, but the enhanced requirements we have imposed make 
us a leader on security in the Federal family.
    That is not to say that it has all been easy and without 
some bumps in the road. No discussion over the last 9 years 
would be complete without recognizing the significant near miss 
that we endured at the Davis-Besse site in Ohio. I pause to 
say, I appreciated the extensive commitment of Senator 
Voinovich in engaging us on that particular issue. While we all 
hope this type of event never happens again, I can assure you 
we have learned from those lessons and they have made us 
stronger.
    We took an agency that had a very poor morale, to one that 
has been independently judged to be the best place to work in 
the Federal Government. We have great people, and our staff is 
doing an outstanding job hiring a diverse, talented workforce 
for the 21st century. While new plant orders were merely hinted 
at in 1998, the significant list the chairman outlined today is 
not only indicative of the enormous potential demand for new 
units, but in my view, it is also a recognition that the NRC is 
no longer viewed as a failed regulatory agency.
    Mr. Chairman, as mentioned, this may be the last time I 
appear in public before this committee prior to my departure. I 
want to leave you with a message that I am proud of the work 
that I and my fellow members have accomplished over these 9 
years. I particularly also want to recognize Ed McGaffigan, 
with whom I have served during the entirety of that time, who 
as has been mentioned, I would underscore, is a faithful, 
dedicated and really someone to be modeled for in the Federal 
Government service.
    Again, thank you, Mr. Chairman. I appreciate your support 
and the support of Senator Voinovich and the committee as a 
whole.
    Senator Carper. Commissioner Merrifield, thank you for that 
statement. Again, thank you for your service. It is a 
remarkable transition, wouldn't you say, over those 9 years. 
You have to be proud.
    Mr. Merrifield. It is a completely different place.
    Senator Carper. That is true.
    Commissioner Jaczko is next. I asked him earlier, I said 
how do you pronounce your name. He said ``Jaczko.'' I said your 
name doesn't have a Y in it, and he says that is OK. I said, 
your name doesn't have a T in it. He said, that is OK. I said, 
how do you really pronounce your name? He said, ``Yaczko.'' 
Hasn't anyone ever mispronounced his name? He said, just once 
or twice.
    Thank you. He was kind enough to share with me some of the 
pronunciations, but he wouldn't share one of them that was his 
high school coach's. We will have to wait for that one sometime 
off the record.
    Mr. Jaczko. Perhaps it would be better in a closed meeting.
    [Laughter.]
    Senator Carper. There you go.
    Commissioner Jaczko, welcome. We are delighted that you are 
here.

     STATEMENT OF GREGORY B. JACZKO, COMMISSIONER, NUCLEAR 
                     REGULATORY COMMISSION

    Mr. Jaczko. Thank you, Mr. Chairman.
    I would just like to add certainly my agreement with the 
thanks that the commission has expressed for the committee's 
support in the budget activities and the capability achieved. I 
can quote that again it is a very important resource for us as 
we embark on a significant amount of new work.
    I also would like to second some of the comments about 
Commissioner Merrifield. Jeff was one of the first people that 
I interacted with when I became a Commissioner. I certainly 
appreciated his counsel then, and I have appreciated his 
counsel throughout the time that we have served together. He 
often mentions that he is the sole attorney on the commission. 
I think he sometimes undersells his knowledge and expertise of 
technical issues as well. I continue to be amazed by his de 
facto engineering status.
    Mr. Merrifield. Some of us practice without a license.
    [Laughter.]
    Senator Carper. I am sure that is true on this side of the 
table as well.
    Mr. Jaczko. I would say that as far as activities of the 
commission, I believe, as several members of the committee have 
said, that in order to accomplish its mission of protecting 
public health and safety, the NRC needs to be transparent in 
explaining its processes and open with the public with 
information as much as possible.
    I think we need to have both sound policy decisions that 
are based on good scientific regulatory and technical 
information, but we also have to be mindful of public 
confidence and how the public views the decisions that we make.
    During my time at the commission, I have been working to 
ensure that our Agency works on communicating those decisions 
better to the public, because I think by communicating better 
with the public, we will engage the public more and get more 
public involvement in our decisionmaking processes. I think the 
result from that will certainly be better policy decisions, and 
the increased likelihood of further increasing public 
confidence in the decisions that we make.
    I think regardless of how well developed our system might 
be, and I believe the NRC does have a good system in place for 
oversight, for inspections, and for other regulatory 
activities, if we fail to do a good job of explaining it, we 
can end up with the right answer, but without the public 
support we need to really move forward successfully with those 
decisions.
    Without good, strong public confidence, we can end up 
expending resources to approve licenses that never get fully 
implemented, or that are repeatedly challenged after they are 
issued. I think that is unfortunately sometimes happening, and 
I think it is an area where we need to work and continue to 
focus.
    I think the statutory system that has been developed gives 
us the opportunity to do that. Most of our processes are 
developed around two important statutes that require tremendous 
public involvement. We have a hearing process that is required 
through the Atomic Energy Act, and we use a rulemaking process 
that requires tremendous public involvement as well.
    I believe if we look for new and unique ways to gain 
further public involvement in those processes, we will only 
make ourselves a more efficient and more effective regulator in 
the future.
    I would just comment briefly on a few issues that I think 
the commission has in front of us that are important issues we 
need to continue to work on. One has to do with an issue that 
has been addressed about aircraft impact for new reactors. I 
think the commission has done a good job since September 11 
focusing on the existing plants and focusing on important areas 
of safety.
    I think for new reactors, we still have a little bit 
farther to go. I think the commission yesterday approved a good 
decision to require assessments for new nuclear powerplants to 
see how they deal with this threat, but I think the commission 
stopped short of putting in place some strong standards for how 
we determine whether or not those designs can address this 
issue.
    The final issue that I would briefly add is that I think 
the commission still has to work to some extent on improving 
the quality of applications that are submitted to this Agency. 
I think we are still getting applications in a variety of areas 
that don't meet some of the quality standards that we expect. I 
think improvement in this area would again help improve the 
efficiency and effectiveness of the Agency.
    Thank you.
                                ------                                

     Response by Gregory B. Jaczko to an Additional Question from 
                             Senator Boxer
    Question. I know you share the view that new nuclear power plants 
built in the U. S. should be designed to withstand the impact of a 
large commercial aircraft. I think there should be a two step approach: 
I agree there should be an assessment of reactor designs, but if the 
designs are faulty, then the company proposing the design should be 
required to make all the improvements necessary to address the flaws.
    What are the elements you think the Commission should consider in 
developing a clear substantive requirement that companies need to 
address design flaws?
    Response. I agree it is a vital and necessary step for the 
Commission to require that new nuclear power plants built in the United 
States be designed to withstand the impact of a large commercial 
aircraft. This will ensure protection of the public and provide 
regulatory stability for applicants who need to know the design 
standards they will have to meet.
    That is why I have proposed adopting actual design standards with 
clear and transparent criteria that any and all applicants would have 
to meet. At a minimum, an effective rule would require applicants to 
perform an assessment which demonstrates the design of their plant 
would withstand an aircraft impact such that there would be no release 
of significant quantities of radioactive materials to the environment. 
In order to comply with this standard, applicants should be required to 
show that in the event of a commercial aircraft impact, their 
facilities would demonstrate some or all of the following:
    (1) reasonable assurance of the structural integrity of 
containment, the spent fuel pool and a minimally necessary set of 
buildings housing the important safety functions;
    (2) reasonable assurance there will be no large fires and 
explosions due to large quantities of fuel leaking into containment, 
the spent fuel pool and a minimally necessary set of buildings housing 
the important safety functions;
    (3) reasonable assurance of safe shutdown capability;
    (4) reasonable assurance that emergency core cooling and residual 
heat removal systems will continue to function as necessary to ensure 
continued reactor pressure vessel and fuel integrity; and
    (5) reasonable assurance that any release of radioactive substances 
to the environment will not produce exposures exceeding 10 CFR Part 100 
guidelines.
    This type of approach is consistent with the manner in which 
similar issues have been dealt with by previous Commissions. For 
example, the NRC has established requirements to address events beyond 
the traditional design-basis, such as transients without scram events, 
loss of all alternating current, and combustible gas control. In each 
case, a significant safety issue was identified, and specific measures 
for resolving these concerns were added to legally binding regulations.
    At this point a majority of the Commission has chosen instead to 
propose a regulation that contains no standards and requires no design 
changes. Despite this setback, I appreciate your thoughtful position on 
this issue and am optimistic that public comment received during the 
rulemaking will lead the Commission to adopt a reasonable standard.
                                 ______
                                 
      Responses by Gregory B. Jaczko to Additional Questions from 
                           Senator Voinovich
                             human capital
    Question 1. Chairman Klein, I was encouraged to hear that NRC's 
recruiting efforts have been quite successful, and I am sure that 
having NRC ranked as the best agency to work for in the Federal 
government will go a long way in attracting qualified people. But, I am 
still skeptical about the agency's capacity to respond, especially when 
considering all the tasks that are coming at you simultaneously: (1) 
more than 18 COL applications; (2) three design certification 
applications; (3) two early site permits; and (4) DOE's Yucca Mountain 
repository application, on top of the routine licensing and oversight 
work for 103 operating reactors and materials licensees.
    Do you believe the agency has the resources necessary to deal 
effectively with all these high priority tasks in a timely manner? Do 
you believe adding more resources to the review of new reactor 
applications will shorten the agency's review schedule?
    Response. The Commission believes that we have enough resources to 
be able to deal effectively with all these high priority tasks in a 
timely manner, provided that we receive appropriate funding levels. 
However, there are uncertainties associated with application schedules, 
and resources needed to review combined license (COL) applications 
because the COL process has not yet been used. As to increased 
resources for the review of new reactor applications, some incremental 
improvements may be possible but these are unlikely to improve 
dramatically the already aggressive proposed schedules. In addition, 
certain portions of the review require a certain length of time which 
cannot be shortened by adding additional resources.
    In October 2006, the NRC reorganized and created the Office of New 
Reactors to review the anticipated new reactor license applications and 
created the Office of Federal and State Materials and Environmental 
Management Programs to focus on the increasing number of Agreement 
States and intergovernmental liaison in the National Materials Program. 
This reorganization allows the Office of Nuclear Reactor Regulation to 
maintain focus on the safety of the 104 currently operating reactors 
and the Office of Nuclear Material Safety and Safeguards to focus on 
fuel cycle activities. The NRC is aggressively hiring qualified staff, 
and is developing strategies for contracting support in key technical 
areas such that resources are available when needed to perform the 
expected licensing reviews. The planning environment for these 
licensing activities has proven to be dynamic, as potential applicants 
have revised or not yet finalized their application schedules.

    Question 2. We did get a chance to discuss during the hearing on 
human capital being a significant challenge not only with the NRC but 
on a broader scale affecting the entire nuclear field including the 
utilities, component manufacturers, government agencies, and national 
laboratories. I am not convinced, however, that government agencies and 
the industry are taking the problem seriously enough. As I requested 
during the hearing, I would like to better understand what NRC is doing 
in terms of outreach to academia. I am also interested in any 
suggestions you might have on how the government-industry-academia can 
work together more effectively to meet this challenge.
    Response. Data trends confirm that in the short run, demand for 
skilled individuals is already outpacing the available supply. It is 
our expectation that as market forces change, the demand will further 
outpace supply, creating an anticipated shortage of individuals 
critical to industry and the fulfillment of the mission of the agency. 
It is in the national interest for everyone, industry and government 
alike, in anticipation of these shortages to provide augmented funding 
to support university programs. Early increases in funding can 
potentially mitigate the long-term impacts instead of waiting for the 
shortages to occur. Extensive efforts are already underway to increase 
the talent pool, some as a direct result of the Energy Policy Act (EPA) 
of 2005.
    <bullet> In FY 2006, the NRC reached out to academia to stimulate 
interest in fields of study related to nuclear power by implementing 
the Nuclear Education Grant program. The NRC provides grants to support 
courses, studies, training, curricula, and disciplines pertaining to 
fields that are important to the work of the agency. The NRC has made 
available approximately $4.7M to institutions and anticipates that 20 
grants will be awarded in FY 2007.
    <bullet> The Scholarship and Fellowship Program supports students 
pursuing an education in critical skill areas related to the NRC's 
regulatory mission. In return, students must fulfill a minimum term of 
employment with the NRC.
    <bullet> Through the Minority Serving Institutions Program (MSIP), 
the NRC establishes and participates in partnership programs with 
institutions of higher education, including Historically Black Colleges 
and Universities (HBCUs), Hispanic Serving Institutions (HSIs) and 
Tribal Colleges and Universities (TCUs), to enhance their capacity to 
train students in fields that are critical to our mission. Programs and 
activities include: mentoring, leadership, research and development 
opportunities, program evaluation, training and technical assistance, 
recruitment and retention initiatives, student tuition assistance, 
scholarships, and housing.
    <bullet> The NRC has been working to establish solid relationships 
with colleges and universities. Agency staff present seminars to 
students, faculty, placement officials, and on-campus society chapters 
to inform students and faculty about the agency's mission and how 
various disciplines are applied at the NRC.
    <bullet> In FY 2006, the agency established the University 
Champions (UC) program. The UCs serve as emissaries of the NRC and 
establish a close individual liaison with the school officials. They 
participate in meetings with engineering and science department heads, 
professors, and career counselors, as well as conduct NRC information 
sessions with students. UCs work closely with the NRC recruitment team 
to assure highly qualified students have an opportunity to be 
considered for employment at the NRC.
    <bullet> In January 2007, Senator Voinovich invited Chairman Klein, 
along with other senior representatives from academia and industry, to 
Ohio State University (OSU), to discuss this broad human capital 
challenge and how to ensure an adequate supply of graduates ready to 
pursue advanced careers in nuclear engineering, health physics, and 
other disciplines critical to the nuclear field. Other Commissioners 
speak at colleges and universities in an effort to generate interest in 
employment at the NRC.
    <bullet> As part of our ongoing recruitment efforts, NRC 
participates in numerous events sponsored by colleges, universities and 
professional organizations. These efforts support the immediate hiring 
of our full-time workforce and provide outreach for programs such as 
cooperative education, internships, and summer employment which support 
our long-term skill needs.
                           public confidence
    Question 3. There was a good discussion during the hearing about 
whether or not NRC should invite outside observers from State and local 
governments and NGOs to observe NRC's inspections. It appears to me 
that one of the reasons for those folks who are advocating for an 
``Independent Safety Assessment'' is the perception that NRC 
inspections are conducted in a shroud of secrecy. Could you please 
provide for the record the NRC's process for getting State and local 
government officials involved in NRC inspections? Could you also please 
provide recent examples where outside observers have participated in 
NRC inspections?
    Response. The NRC has a long-standing policy of permitting State 
representatives to observe NRC inspections. The policy entitled, 
``Cooperation With States at Commercial Nuclear Power Plants and Other 
Nuclear Production or Utilization Facilities,'' issued in 1992 (57 FR 
6462), sets out the general framework for NRC's cooperation with 
States, including keeping the States informed of issues in a timely 
manner and establishing the process for States to either observe or 
participate in NRC inspections. NRC staff procedures relating to this 
policy can be found in the NRC Management Directive 5.2, ``Memoranda of 
Understanding With States'' which is available on the NRC website. This 
staff procedure forms the basis of an effective means of outreach for 
outside observers from State and local governments to observe NRC 
inspections.
    A central purpose of these policy initiatives is to dispel any 
perception that there is of a shroud of secrecy regarding NRC's 
inspection process. Effective and open communication with Federal, 
State, and local governments, interstate organizations, and Native 
American Governments is an agency goal, and the Commission recognizes 
that stakeholder outreach is an important factor in building and 
maintaining public confidence in NRC regulatory policies and programs. 
The NRC will continue close coordination of our activities with 
Federal, State, and local elected officials, and we remain focused on a 
number of reviews and initiatives to help us understand and address the 
specific needs of the communities around sites.
    You asked for specific examples where outside observers have 
participated in NRC inspections. The NRC regional staff routinely 
notify appropriate State officials of planned NRC inspections. The 
purpose of this prior notification is to facilitate State observation 
of an NRC reactor inspection. We believe that our processes help build 
NRC public credibility about the NRC reactor inspection process. 
Specific examples of state involvement in NRC inspections activities 
follow:
    <bullet> Representatives from the State of New Jersey observed 
Problem Identification and Resolution inspections at the Oyster Creek 
plant in May 2006, and at the Salem Generating Station in March 2007. 
In addition, representatives from the State of New Jersey accompanied 
NRC inspectors in March 2006, during a Triennial Fire Protection 
inspection at the Salem Generating Station and during License Renewal 
inspections in March and December of 2006, at the Oyster Creek plant.
    <bullet> Members of the Pennsylvania Department of Environmental 
Protection accompanied inspectors during the Triennial Fire Protection 
inspection, in December 2005, at the Three Mile lsland station. 
Additionally, Pennsylvania Department of Environmental Protection staff 
observed Biennial Exercise Inspections at the Three Mile Island station 
in May 2005 and April 2007. Emergency Preparedness inspections at the 
Beaver Valley site were observed by representatives of the States of 
Pennsylvania, Ohio and West Virginia in June 2006.
    <bullet> A State of New Mexico Environmental Scientist accompanied 
NRC inspectors during a construction oversight inspection at the 
Louisiana Enrichment Services fuel cycle facility located near Hobbs, 
New Mexico during the week of December 11, 2006.
    <bullet> The State of Ohio has been an active observer of NRC 
inspections for years, particularly at the Perry and Davis-Besse 
nuclear power plants. A number of State agency representatives, 
including some from the Ohio Department of Health and the Ohio 
Emergency Management Agency, have observed NRC inspections.
    <bullet> The Vermont Department of Public Service employed a State 
Nuclear Engineer, who observed NRC reactor inspections whenever he was 
available. These interactions continue today, and NRC maintains close 
coordination with Vermont on observation of inspections at Vermont 
Yankee.
    <bullet> A New Jersey (NJ) Department of Environmental Protection, 
Bureau of Nuclear Engineering employee has been an active participant 
in monitoring conditions at nuclear power plants within NJ. The NRC 
follows a historic letter agreement with the State of NJ which 
establishes the protocol for State surveillance at Salem, Oyster Creek 
and Hope Creek nuclear power plants. This protocol defines the 
responsibilities of the NJ Bureau of the Nuclear Engineering employees 
and the NRC, and is similar to the Commission Policy. NJ Nuclear 
Engineers routinely accompany NRC staff on inspections, and the State 
has engineers assigned to each site.
    <bullet> Indian Point was the subject of considerable discussion 
during the hearing. The NRC continuously reaches out to State and local 
governments and members of Congress to keep all parties informed about 
site developments. A New York Department of Public Service staff 
engineer has the responsibility to observe and accompany NRC inspectors 
on occasion. Also, the New York Department of Environmental 
Conservation and the Department of Health routinely accompany NRC 
inspectors at the Indian Point facility.
    <bullet> With respect to Tribal Nations, in Minnesota the NRC 
maintains close communication with the Prairie Island community 
regarding the Prairie Island Nuclear Power Plant. Because of interest 
expressed by the Community, the Commission determined that 
representatives from the Community may observe NRC inspections at the 
plant if the Community meets the same requirements that an Adjacent 
State must meet as specified in the Commission's policy on State 
cooperation. In addition, information related to the Prairie Island 
nuclear power plant is provided to the Tribal Government. Tribal 
members have observed NRC inspections on multiple occasions.
    <bullet> NRC has two Memoranda of Understanding (MOU) with the 
State of Illinois to participate in NRC inspection programs. One MOU 
allows a State resident inspector to perform inspections in cooperation 
with the NRC resident inspectors at nuclear power plants in the State 
of Illinois. The Illinois resident inspector may observe NRC 
inspections and participate in NRC's inspection program. The Illinois 
State resident inspectors can perform inspections on behalf of the NRC, 
but under the MOU, provide their inspection results to the NRC for 
appropriate action and enforcement. Illinois is also allowed to perform 
joint boiler and pressure vessel team inspections at nuclear plants in 
Illinois under a separate MOU. The Illinois program is funded under a 
State fee system imposed upon the operating nuclear power plants in 
Illinois.
    <bullet> The Commonwealth of Pennsylvania maintains a robust 
nuclear engineering program that is similar to the one in Illinois. 
Pennsylvania has separate agreements with each of the nuclear operating 
companies that permit access and facilitate a State presence at each 
reactor. Pennsylvania has resident inspectors who monitor licensee 
activities and report back to the Pennsylvania Department of 
Environmental Protection. These inspectors routinely accompany NRC 
staff on inspections, and provide valuable input to the NRC oversight 
program.
    A more comprehensive list of Memorandum of Understandings with 
States can be found on the NRC website.

    Question 4. From your testimony, I understand that NRC's Reactor 
Oversight Process is a continual set of inspection procedures that 
occurs at each nuclear power plant whereas an Independent Safety 
Assessment is a ``snapshot'' of a limited period of time at a 
specifically selected plant. Both essentially inspect the same 
processes, activities, and equipment. Is this correct and could you 
elaborate on these two activities?
    Response. You are correct. The staff performed a careful and 
thorough comparison of the Independent Safety Assessment (ISA) 
conducted at Maine Yankee to the inspections conducted at all nuclear 
power plants in accordance with the Reactor Oversight Process (ROP) to 
identify any gaps. The staff concluded that, on an ongoing basis, the 
current ROP inspections and regulatory framework effectively examine 
the same key aspects of plant safety as did the Maine Yankee ISA. 
However, the current ROP is a more thorough process to assess plant 
safety, with better focus on potentially risk-significant problems.
    The Maine Yankee ISA that was performed during three months in 
1996, was, at that time, unique in its scope, inspection team 
composition, and in its coordination with state representatives. The 
NRC conducted the ISA in response to a specific set of circumstances 
associated with allegations made about the facility's power uprate 
application. The regulatory oversight program at that time allowed for 
special inspections as a part of the process, called Diagnostic 
Evaluation Team (DET) inspections. The ISA was a modified DET that 
added a detailed review of analytic codes for transient and accident 
safety analyses. It focused on conformance of the facility to its 
design and licensing bases, operational safety performance, licensee 
self-assessments, corrective actions and improvement plans, and 
determination of the causes of safety-significant findings. The use of 
application analytic codes was not typically inspected as part of the 
NRC regulatory process at the time, and additional focused resources 
were applied to this area. However, review of the codes was necessary 
to address the allegations made against the licensee.
    The NRC Reactor Oversight Process is anchored in the NRC's mission 
to ensure public health and safety in the operation of commercial 
nuclear power plants. The ROP is designed to focus agency resources on 
those plant activities most important to safety. It is also designed to 
be objective and predictable; that is, if two plants exhibit the same 
performance, they will receive the same level of regulatory oversight. 
The oversight process collects information from inspections and 
performance indicators to enable the NRC to arrive at conclusions about 
the licensee's safety performance which are as objective as possible.
    Based on this information, the NRC determines the appropriate level 
of agency response. If plant performance declines, the NRC increases 
plant oversight, including increasing the number of inspections, 
scheduling supplemental inspections focusing on areas of declining 
performance, and taking pertinent regulatory actions ranging from 
management meetings up to and including orders for plant shutdown. The 
process uses five levels of regulatory response with NRC regulatory 
review increasing as plant performance declines. The first two levels 
of heightened regulatory review are managed by the appropriate NRC 
regional office. The next three levels call for higher level agency 
response, and involve senior management attention from both 
headquarters and regional offices. The scope of inspections is driven 
by plant performance. A poor performing plant having multiple or long-
standing significant issues will be inspected using a procedure which 
incorporates processes and techniques originally used in the previously 
mentioned Diagnostic Evaluation Team (DET) process that was applied at 
Maine Yankee.
    Even if there are no earlier signs of declining plant performance, 
if a plant experiences operational problems or events that the NRC 
believes require greater scrutiny, the NRC will perform additional 
reactive inspections as part of the ROP. In some instances where 
increased oversight beyond what is prescribed by the ROP is 
appropriate, the NRC may require additional inspections beyond what is 
called for by the ROP.
                                 ______
                                 
  Responses by Gregory B. Jaczko to Additional Questions from Senator 
                                 Craig
    Question 1. The 2005 Energy Policy Act outlined the development of 
a licensing strategy for the Next Generation Nuclear Plant (NGNP) 
Project. What is the status of your discussions with DOE on the 
licensing strategy?
    Response. A Memorandum of Understanding (MOU) between the NRC and 
DOE was implemented on October 13, 2006, to facilitate the two 
agencies' working together to develop the NGNP licensing strategy as 
outlined in the 2005 Energy Policy Act. A joint licensing strategy 
working group comprised of NRC and DOE staff was formed shortly 
thereafter. The group has had several working meetings to date, 
addressing the scope of the licensing strategy as outlined in the Act. 
Specifically, the group is developing licensing approach options for 
NGNP in which current NRC light water reactor (LWR) licensing technical 
requirements will be adapted for NGNP (currently considered to be a 
very high temperature gas-cooled reactor type) while making use of 
probabilistic methodology and risk information as called for elsewhere 
in the Act. NRC staff, with appropriate participation from DOE, are 
also working on identifying analytical tools that the NRC will need to 
develop to independently verify the safety performance of NGNP, and 
other research and development activities the NRC will need to conduct 
to review an NGNP license application.

    Question 2. Will you be ready to present to Congress your licensing 
strategy for NGNP next year, as outlined in the Energy Policy Act?
    Response. Yes. The Act requires that the licensing strategy be 
developed and presented to Congress jointly by the NRC and the DOE. We 
have made sufficient progress to date which gives us the confidence 
that we can meet the congressionally-mandated schedule.

    Question 3. The Energy Policy Act calls for ongoing interaction 
between DOE and the NRC on the NGNP project. Are your two agencies 
interacting on this project, if yes how and if not why not?
    Response. Yes, the two agencies are working very closely on the 
development of the licensing strategy, and the interaction is 
excellent, as indicated in the response to Question 1. There is a 
second form of interaction outlined in the Act which addresses DOE's 
solicitation of NRC participation, in a review and advisory role, in 
DOE-initiated and sponsored research and development activities 
involving NGNP and high temperature gas reactors conducted at various 
national laboratories and other institutions. This interaction is in 
the early stage of development, and both agencies are working together 
to enhance cooperation in this area.
                                 ______
                                 
      Responses by Gregory B. Jaczko to Additional Questions from 
                            Senator Sanders
    Question 1. In June 2006, Senator Jeffords asked at the Environment 
and Public Works NRC Oversight hearing about the April 2005 GAO report. 
That report discussed, among other matters, the loss of spent fuel rods 
at Vermont Yankee in 2004. The GAO report recommended that the NRC 
establish requirements for the control of loose fuel rods and develop 
inspection procedures to verify plants' compliance. The NRC wrote to 
Senator Jeffords in 2005 saying that it was addressing the GAO's 
report. However, by the 2006 hearing, little progress in actually 
implementing these recommendations had been accomplished.
    What progress has been made to address the GAO's findings?
    Response. Substantial progress has been made in implementing the 
recommendations in the August 2005 GAO report. The NRC requirements for 
the control and accounting of loose fuel rods are established in Title 
10 of the Code of Federal Regulations, Section 74.19, which states, in 
part, that each licensee is required to keep records of receipt, 
shipment, disposal, and inventory (including location) of all special 
nuclear material (SNM) in its possession and to perform annual physical 
inventories of all SNM. Special Nuclear Material includes irradiated 
nuclear fuel in all forms, including loose fuel rods and pieces.
    In 2005, the NRC issued an inspection procedure, ``Spent Fuel 
Material Control and Accounting at Nuclear Power Plants,'' to verify 
licensee compliance with these requirements. By the end of July 2007, 
the NRC will have completed detailed inspections of the Material 
Control and Accounting (MC&A) programs at all 65 operating power 
reactor sites, three decommissioning reactors, and four wet storage 
sites.
    In 2006, the NRC issued an Information Notice (IN) 2006-25: 
``Lessons Learned from NRC Inspection of Control and Accounting of 
Special Nuclear Material at Commercial Nuclear Power Reactors,'' to 
inform the industry of lessons learned from the recent inspections of 
MC&A programs for SNM at commercial nuclear power plants. The 
Information Notice also clarified regulatory requirements regarding the 
control and accounting of SNM. Information contained in IN 2006-25 is 
consistent with the guidance contained in the American National 
Standards Institute (ANSI) Standard N15.8-1974, ``Nuclear Material 
Control Systems for Nuclear Power Plants.'' This standard, as well as 
applicable inspection procedures and guidance documents will be updated 
to reflect lessons learned once all the MC&A inspections are completed 
later this year.

    Question 2a. The NRC has lost the confidence of much of the public. 
Last year, Senators Durbin and Obama introduced legislation to address 
safety issues related to chronic groundwater leaks from nuclear power 
plants in Illinois. This year, Senator Clinton introduced a safety 
assessment bill focused on issues at Indian Point, And, as you how, I 
have introduced a bill, S.1008, to enable States to obtain independent 
safety assessments of nuclear plants.
    In addition to the federal action, the State of New Jersey, 
Vermont, and Massachusetts have legally intervened against the NRC in 
power uprate and/or license renewals of nuclear plants in their states. 
Then, too, the local governments around the Shearon Harris nuclear 
plant in North Carolina have formally pleaded with the NRC to enforce 
fire protection regulations.
    Doesn't history strongly suggest that the public, including 
government officials on the national, state, and local levels, have 
lost confidence in the NRC?
    Response. No, the NRC is an independent regulatory agency that has 
justifiably earned the public's confidence as a responsible and 
effective regulator.

    Question 2b. What steps has the NRC planned to restore public 
confidence in the agency?
    Response. As stated earlier, the NRC has earned the public's 
confidence. If you are aware of specific concerns that the public has 
about the agency, we encourage you to bring them to our attention, or 
ask your constituents to contact the agency directly. NRC welcomes 
public feedback and will take appropriate actions to address concerns.

    Question 2c. Would you be willing to conduct an independent safety 
assessment, similar to the Maine Yankee assessment, on 2006's worst 
performing nuclear units, to demonstrate the effectiveness of, and to 
inspire public confidence in the ability of the Reactor Oversight 
Program (ROP) to catch all the major problems? Could you address the 
expressed concerns of citizens, local, state and federal officials in 
New York and Vermont by conducting such an independent safety 
assessment at the Indian Point and Vermont Yankee nuclear facilities?
    Response. The Commission does not believe there is a need to 
conduct additional safety assessments similar to the Maine Yankee 
assessment. The current Reactor Oversight Process (ROP) baseline 
inspections and regulatory framework effectively examine the same key 
aspects of plant safety as did the Maine Yankee Independent Safety 
Assessment (ISA), but with greater attention to safety culture and 
better focus on risk-significant activities. The ROP is designed to be 
objective and predictable and to increase regulatory oversight if plant 
performance declines. Poorly performing plants having multiple or long-
standing significant issues are inspected using processes and 
techniques originally used in the previous inspection process that was 
applied at Maine Yankee. Therefore, additional ISA type inspections for 
poorly performing plants are not necessary.
    The NRC developed regulatory process allows for public comment in 
various forums including the annual public plant assessment meetings. 
In addition, the NRC has a long-standing policy on cooperation with 
States, permitting State representatives to observe NRC inspections, 
including upcoming license renewal inspections at Indian Point. The NRC 
would be glad to discuss the full extent to which State representatives 
could observe our inspections going forward. We believe such 
observations by independent State representatives would validate the 
depth, breadth, and thoroughness of our inspection efforts at nuclear 
power plants.

    Question 3. It is reported that during the first few years of the 
Reactor Oversight Program (ROP), NRC conducted surveys of NRC staff 
regarding confidence in the ROP. The surveys had decidedly mixed 
results with numbers of staff approximating 50 percent indicating their 
belief that the ROP was reducing, not increasing public safety. Please 
provide a copy of this survey.
    Has NRC conducted more recent surveys to determine staff confidence 
in the ROP?
    Response. The NRC conducts biennial internal surveys to solicit and 
analyze feedback from NRC staff regarding the effectiveness of the ROP. 
The staff's evaluation of the feedback is included in a Commission 
paper on the results of the staff's annual self-assessment of the ROP 
(SECY 07-0069, Enclosure 3). There have been five internal surveys to 
date and the results of each survey and assessment are available on the 
NRC's public website. Consistent with the biennial frequency, the staff 
plans to conduct its next internal survey in the fourth quarter of 
2008.
    The staff's confidence in the ROP increased notably after the first 
few years as noted in Attachment 1 to SECY-01-0114, ``Results of the 
Initial Implementation of the New Reactor Oversight Process.'' The 
staff's evaluation of the survey results concluded that: ``Although 
some NRC inspectors may have initially indicated skepticism of the 
significant changes being brought about by the new program, the end-of-
program 2001 survey indicates a much higher level of acceptance, and a 
better understanding and familiarity with the ROP. The 2001 survey data 
indicates that generally NRC internal stakeholders who have been 
involved with the implementation of the new program and are familiar 
with its processes have more positive acceptance than those who were 
surveyed after the pilot program initiative in 1999.'' Specifically, 
the survey results indicated that: ``The majority of respondents to the 
2001 survey agreed that the ROP provides appropriate assurance that 
plants are being operated safely (88 percent in 2001 vs. 49 percent in 
1999) and that the ROP provides appropriate regulatory attention to 
licensees with performance problems (74 percent in 2001 vs. 41 percent 
in 1999).'' The majority of the other questions for the 2001 survey had 
significant increases in positive response percentages as well. The 
most recent internal survey in 2006 (SECY 07-0069, Enclosure 3), showed 
that 90 percent of the staff agreed that the ROP provides appropriate 
assurance that plants are being operated safely and 87 percent agreed 
that the ROP provides appropriate regulatory attention to licensees 
with performance problems.

    Question 4. In 2002, a power uprate in Illinois resulted in severe 
vibrations that caused a series of shutdowns and the replacement of a 
severely damaged steam dryer in 2004. In the spring of 2005, NRC staff 
undertook a project to gather information regarding equipment failures 
at nuclear plants that had undergone extended power uprates (EPU), as 
had been granted at Vermont Yankee, in order to determine if there were 
failures generic to EPU.
    <bullet> What is the status of that project?
    <bullet> When will it be completed?
    <bullet> When will the data be available to the public?
    Response. The information gathering for the boiling-water reactor 
EPU study has been completed and documented in a report which is 
expected to be issued by August 31, 2007. The report will be made 
publicly available.

      Question 5. The following exchange took place between Congressman 
Ed Markey and the NRC at an NRC Authorization Hearing April 17, 1985:

          Question 21: Chairman Markey: ``What does the Commission and 
        NRC staff believe the likelihood of a severe core melt accident 
        to be in the next 20 years for those reactors now operating and 
        those expected to operate during that time?
          Response. ``. . . THE CRUDE CUMULATIVE PROBABILITY OF SUCH AN 
        ACCIDENT WOULD BE 45%.''

    Our nuclear reactors are now 22 years old. Do you have an update on 
this assessment?
    Response. As you may know, the 1985 answer, a small portion of 
which you selectively quote, was in response to a pre-hearing question 
submitted by Congressman Markey. There were caveats offered by Chairman 
Palladino, by Commissioner Asselstine, as well as by the staff that 
your excerpt leaves out. The questioning at the 1985 hearing itself led 
to further discussion of the problems with the estimate, including that 
it was based on a very limited number of crude probabilistic risk 
assessments then available. Chairman Palladino flatly stated that ``Had 
I had more time, this answer would have been written differently.''
    A mechanistic calculation based on often outdated and incomplete 
estimates of core damage frequency at the existing 104 operating plants 
would be both inaccurate and misleading. To put this in context, 
current probabilistic risk assessments (PRAs) have a wide range of 
quality. They are all much better at determining the marginal impact on 
core damage frequency of a proposed change in equipment or procedures 
(i.e., calculating differentials) than at summarizing the core damage 
frequency of all possible scenarios, whether generated by internal or 
external events and in various modes of operation (i.e., calculating 
integrals). Such comprehensive up-to-date PRAs still do not exist for 
the operating plants, although they will be required for new reactors. 
For these reasons, NRC's efforts to risk-inform our regulatory 
processes rely on NRC's traditional deterministic approach augmented by 
risk insights, where appropriate.
    One central performance measure for NRC in the reactor arena is a 
goal of zero significant precursors per year. A significant precursor 
is an event with a greater than one in a thousand conditional core 
damage frequency. NRC annually summarizes all events with greater than 
one in a million conditional core damage frequency. We have achieved 
the zero significant precursor goal each of the last 10 years except 
for the Davis-Besse event of 2002. That event was calculated to have a 
conditional core damage frequency of six chances in a thousand during 
the year preceding discovery of the head damage by our accident 
sequence precursor program. We never want to see such an event again, 
but that was still a factor of about 170 from a small break loss of 
coolant accident, which would have been well within the design basis of 
the plant, and, had it occurred, should have had no off-site health and 
safety public consequences.
    NRC cannot promise perfection in the pursuit of safety at the 104 
operating reactors. But we proactively react to every significant 
anomaly that occurs, to ensure the reason for the anomaly is identified 
and adequately addressed. The industry itself has achieved levels of 
performance not dreamed of in 1985 in every NRC performance indicator. 
Various NRC rule changes, such as the Maintenance Rule, the Station 
Blackout Rule, the 1999 amendment to the Maintenance Rule dealing with 
on-line maintenance, have significantly improved safety and led to 
lower estimates for conditional core damage frequencies. The security 
measures which the Commission put in place starting in February 2002 
will, when factored into PRAs, have significant safety benefits which 
are not factored into today's PRAs.
    The focus of the Commission is constantly on improved safety for 
these plants. The metrics we use, such as the goal of zero significant 
precursors each year, are the right performance metrics. The reactor 
oversight process (ROP) is the right tool to use to find outliers 
within the 104 plants and give them the extra attention they deserve. 
We are committed to constant improvement in the ROP, including both 
revised performance indicators and new inspection modules in areas as 
diverse as engineering and human performance.
    The plants may be 22 years older, but by every measure they are 
enormously safer today. NRC intends to keep it that way.

    Question 6a. Aging Plants and License Renewal.--In 2004 at Vermont 
Yankee, a transformer fire, hydrogen burn, and emergency shutdown of 
nuclear reactor (SCRAM) occurred. The licensee reported that this 
happened due to an increase in airflow through a duct (in anticipation 
of the uprate) and other aging-related factors.
    What does the NRC do to confirm the licensee's conclusion?
    Response. In general, whenever events or potential safety issues 
are identified at a licensee's facility, the NRC takes immediate action 
to assess the significance of the situation and evaluate the licensee's 
response to address the situation. The NRC evaluates the licensee's 
root cause analyses and corrective actions and will question the 
licensee, as necessary, to ensure that all safety issues have been 
resolved.
    With respect to this specific event, the NRC on-site resident 
inspector immediately responded to follow the licensee's actions and 
the NRC initiated a comprehensive review of the event beginning with 
on-site inspection activities on June 18, 2004. The NRC inspection 
activities included an assessment of the licensee's immediate response 
to the event, monitoring of its event investigation and root cause 
determinations, and a review of the corrective actions to confirm that 
any actions needed to assure the safe operation of the plant were 
accomplished prior to startup.

    Question 6b. How does the NRC factor this into the license renewal 
process?
    Response. The requirements for license renewal are based on the 
following two fundamental principles:
    1. The regulatory process for nuclear power plants is adequate to 
ensure that currently operating plants will continue to maintain 
adequate levels of safety during the period of extended operation, with 
the possible exception of detrimental effects of aging on certain 
systems, structures and components, and a few other issues that may 
arise during the period of extended operation; and
    2. Each plant's licensing basis is required to be maintained during 
the renewal term in the same manner and to the same extent as during 
the original licensing term.
    The first principle recognizes that the regulatory process provides 
assurance that plants are currently operating safely and will continue 
to do so in accordance with the plant's licensing basis. The licensing 
basis for a plant does not remain fixed for the term of its operating 
license. It continues to evolve throughout the term of the operating 
license because of the continuing regulatory activities of the NRC, as 
well as the activities of the licensee.
    The second principle of license renewal is that the plant's 
licensing basis, though possibly evolving, must continue to be met in 
the period of extended operation. This requirement will ensure that any 
actions taken in response to the operating event continue to be 
implemented after license renewal.
    The focus of the license renewal review is on passive long-lived 
systems, structures, and components for which the effects of aging may 
not be as readily detectable by existing programs. The review also 
includes time-limited aging analyses that are related to safe operation 
of the plant and are based on the original operating term of 40 years. 
The licensee must demonstrate that there is reasonable assurance that 
the detrimental effects of aging on the functionality of systems, 
structures, and components will be managed and that time-limited aging 
analyses have been evaluated such that the plant will continue to 
operate safely in compliance with its licensing basis.
    In establishing the requirements for license renewal, the NRC 
determined that the detrimental effects of aging in active components 
such as transformers, are more readily detected and corrected by 
routine surveillance, testing, and maintenance and/or replacement 
programs. These programs for active components are required throughout 
the original license term and will continue throughout the period of 
extended operation resulting from license renewal. Therefore, active 
components do not require additional review specific to the license 
renewal process.
    Regarding operating events such as the referenced transformer fire, 
a licensee's corrective action program and the NRC's regulatory 
oversight will ensure that operating events are evaluated and any 
needed corrective actions taken. All changes required at the plant as a 
result of this evaluation become part of the plant's licensing basis.

    Question 7. In testimony given on April 25, 2007, the Commissioners 
congratulated themselves for addressing the issue of the possibility of 
air attacks on nuclear facilities. In fact, the Commission voted to 
require designers to ``consider'' whether there are design enhancements 
they might be willing to make, rather than requiring new reactors to be 
designed to withstand the crash of a large aircraft, such as occurred 
on 9/11.
    What was the basis for Commissioner Jaczko's dissent and what was 
the basis for the majority to dismiss these concerns?
    Response. The Commission majority does not believe that your 
question properly characterizes the April 24, 2007 Commission 
direction. For example, the word ``consider'' does not appear in the 
proposed rule text. As we described in our response to Senator Boxer's 
question #2, the critical sentence in the rule text prescribes a 
``practicability'' standard. The NRC staff will independently evaluate 
each applicant's design. If there are differences between the staff and 
an applicant over the practicability of design features, functional 
capabilities and strategies to avoid or mitigate the effect of the 
applicable aircraft impact with reduced reliance on operator actions, 
they will be resolved in the design certification rulemaking for that 
applicant. We would refer you to the more comprehensive discussion on 
the Commission majority's position in our response to Senator Boxer's 
second question.
    As indicated in his publicly available vote sheet for Proposed 
Rulemaking-Security Assessment Requirements for New Nuclear Power 
Reactor Designs, Commissioner Jaczko's response was based upon his 
belief that the proposed approach did not include a regulatory standard 
that would require the inclusion of design features to minimize the 
damage caused by a large commercial aircraft crash. Commissioner Jaczko 
stated that the proposal would place the agency in the untenable 
position of providing hints and suggestions for applicants and vendors 
to consider, and then hope their self-interest would encourage them to 
make the necessary improvements.
    The majority of the Commission believes that this is not the case. 
The new rule is intended to require nuclear power plant designers to 
perform a rigorous assessment of design features that could provide 
additional inherent protection to avoid or mitigate the effects of an 
aircraft impact, while reducing or eliminating the need for operator 
actions, where practicable.
                                 ______
                                 
      Responses by Gregory B. Jaczko to Additional Questions from 
                             Senator Inhofe
    Question 1. What has the NRC done to prepare for the COLs (combined 
licenses) and how long will it take you to process them?
    Response. In addition to reorganizing the agency as described in 
response to Senator Voinovich's first question, and making major 
``streamlining'' changes to NRC's hearing procedures in 2004, the staff 
developed a review process titled, ``design-centered review approach,'' 
to review the expected combined license (COL) applications. A 
standardized, uniform, design-centered approach to both COL application 
development and NRC review is expected to significantly enhance 
effectiveness and efficiency.
    The Commission recently approved a revision to 10 CFR Part 52. 
Thus, the staff is making conforming changes throughout the NRC's 
regulations in addition to updating the regulatory infrastructure 
necessary to review and process new reactor applications for light 
water designs (including contents of a COL application). These 
activities will enhance the NRC's regulatory effectiveness and 
efficiency in implementing its new reactor licensing processes, and 
allow applicants to provide focused and complete applications that will 
minimize the need for supplemental information.
    Industry currently is expected to submit 19 COL applications during 
the next two years. The New Reactor Licensing Program Plan (LPP) is 
being developed and intended to be used as an internal project 
management (planning and scheduling) tool. Specific review schedules 
for individual applications will be determined when applications are 
docketed, and will consider factors such as degree of standardization, 
technical acceptability, and completeness of the application. Once the 
application-specific acceptance review is completed, review schedules 
will be shared with the applicant and also published on the NRC 
website. The LPP not only schedules the COL activities, but also the 
review of the three design certifications, and the three early site 
permits that are currently being reviewed or will be reviewed.
    A COL application is estimated to be reviewed and completed in 
approximately 30 months, plus the time needed for the hearing process.

    Question 2. How important is the guaranteed loan program to 
building new nuclear reactors?
    Response. A large percentage of NRC costs are recovered through 
fees that are charged to licensees. No utility has announced that it is 
committed to building a plant. To date, the industry has only announced 
that it intends to submit a number of license applications which are a 
relatively small cost in comparison to the total cost of bringing new 
generation on line. Until announcements are made that a utility will 
build a new plant, the NRC cannot speculate on the importance of the 
guaranteed loan program.

    Question 3. The ``Part 52 Rule,'' for early site permits has taken 
longer than expected. Have you looked critically at the NRC processes 
to determine where bottlenecks occurred and what can be done in the 
future so it's not repeated?
    Response. The NRC performed a critical review of its rulemaking 
process in 2006, and the Commission approved implementation of several 
measures to improve the efficiency and timeliness of the process. A 
number of these measures were implemented in the late stages of the 
rulemaking on 10 CFR Part 52. However, some of the efficiencies gained 
were offset by a substantial amount of stakeholder involvement in the 
late stages of the rulemaking. The NRC continues to look for further 
efficiencies in the rulemaking process and will, as it did in the case 
of the Part 52 rulemaking, continue to balance the need for efficiency 
with the need to address the increased involvement of external 
stakeholders in the rulemaking process.

    Question 4. Do you need more resources or legislative help to 
process and move forward on the Yucca Mountain permit?
    Response. Existing law provides a sufficient legislative framework 
for the NRC to begin the review of the Yucca Mountain license 
application. If the resources requested by the NRC are provided, the 
level of funding should be adequate.

    Question 5. You have recently hired a number of new employees, and 
you have plans to hire even more in order to move forward on the next 
generation of nuclear reactors. How is the current market for nuclear 
professionals? Will the NRC and industry be able to find enough 
qualified individuals?
    Response. NRC's hiring program is currently successful in replacing 
retiring employees and hiring additional staff to support new work. We 
exceeded our FY 2006 hiring goal and we are well on our way to meeting 
our FY 2007 goal. The agency anticipates having critical hiring needs 
for the next several years. While we are positioned to meet our hiring 
goals in the short term, NRC will have the ongoing challenge of 
maintaining our recruitment pace and successes.
    The Oak Ridge Institute for Science and Education (ORISE) data 
reflects substantial increases in nuclear engineering enrollments and 
degrees, although the number is still substantially lower than the 
numbers in the mid-1990s. ORISE data also confirms that the available 
U.S. civilian labor supply of new nuclear engineering graduates and 
health physicists is substantially less than the number of job 
openings. For example, there are 1.5 to 2.5 job opportunities per 
available health physicist graduate and over two job openings per 
nuclear engineering graduate available. This is so even though there 
has not yet been a rapid increase in retirements or industry growth.
    These data trends confirm that in the short run, demand for skilled 
individuals is already outpacing the available supply. It is our 
expectation that as market forces change the demand will further 
outpace supply creating a shortage of individuals critical to industry 
and the fulfillment of the mission of our agency. It is in the national 
interest for everyone, industry and government alike, in anticipation 
of these shortages, to provide augmented funding to support university 
programs. Early increases in funding can potentially mitigate the long-
term impacts instead of waiting for the shortages to occur.
    As mentioned previously in our response to Senator Voinovich's 
second question on human capital, NRC participates in numerous events 
sponsored by colleges, universities and professional organizations. 
These efforts support the immediate hiring of our full-time workforce 
and provide outreach for programs such as cooperative education, 
internships, and summer employment which support our long-term skill 
needs.
    NRC will continue to adjust our human capital strategies to 
maintain our technical knowledge and skills. These include maintaining 
a vigorous and successful recruitment program and utilizing fully the 
provisions of the Energy Policy Act of 2005.

    Question 6. It is my understanding that some of the large 
generators and other equipment needed to build a new reactor are not 
built in the U.S. How does the world-wide market look? Will the 
necessary parts and equipment, not to mention the nuclear material be 
available to construct all of the plants being considered?
    Response. In response to changes in the manufacturing sector since 
the last large-scale construction of domestic nuclear power plants, new 
reactor construction will require a shift from a mostly domestic to a 
broader, international market for the design, engineering, and 
fabrication of key equipment and components. As the nuclear power 
industry proceeds with its plans to build new units in the United 
States, and as other countries begin to compete for similar, key 
nuclear components from the same limited suppliers, supply will be 
outpaced by demand such that backlogs and long lead times may occur.
    The NRC will closely monitor industry activities and will provide 
enhanced oversight of key nuclear component suppliers around the world 
to ensure that the high quality assurance standards demanded for the 
U.S. nuclear industry are maintained.

    Senator Carper. Commissioner Jaczko, thank you very much.
    We welcome Senator Clinton. You are welcome to make a 
comment or two if you would like, and then we are going to 
start the 7 minute question period. But if you would like to 
say something, feel free.

STATEMENT OF HON. HILLARY RODHAM CLINTON, U.S. SENATOR FROM THE 
                       STATE OF NEW YORK

    Senator Clinton. I just want to thank the chairman and the 
Ranking Member, and thank the members of the commission. Mr. 
McGaffigan, it is great to see you here. I am pleased to have 
this chance to participate in this hearing.
    I have a number of questions that go to some of the 
decisions that the NRC has been making, with particular 
respect, as all of the Commissioners know, to Indian Point, 
which I think is an exception to a lot of the rules that have 
been made. So we will get to those questions during the 
question time.
    Senator Carper. Thank you.
    Senator Voinovich was going to ask you a bunch of 
questions, I suspect, with respect to human resources and your 
ability to provide the human resources to meet the challenges 
that lie ahead.
    I just want to ask one that kind of relates to this. I 
don't want to get on his turf, but, Senator Clinton, we were 
just talking about how the commission has been recognized as 
the best place in the Federal Government to work, which is a 
high honor. They have a huge challenge in terms of staffing up 
to meet the workload that lies ahead.
    My question relates to how you won the honor, how the 
commission won the recognition as the best place in the Federal 
Government at which to work. How did you get there? It is 
important that you stay there, because you need to to be able 
to attract the best and brightest to meet the challenges that 
you face. But how did you get there? How do you plan to stay 
there?
    Mr. Klein. Mr. Chairman, I think we have a lot for reasons 
of how we got there, but it took a culture of openness. In 
terms of what we do is we hire good people. We train them. We 
make our expectations clear. So we have a good communication 
plan, and the fact that we are an open agency I think helps in 
that regard.
    I think most importantly, we always talk about a 
communication plan, but I think what we have at the Agency is a 
listening plan. We listen to our employees. We care about our 
employees and we try to take good care of them. So as I had 
indicated when I represented the Agency to receive the award, 
that next year we want to be first in the Nation, not just in 
Federal Government, so we intend to both maintain our good 
working relations and expand on it.
    Senator Carper. I like to say if it isn't perfect, make it 
better, and obviously everything we do, we can do better. 
Congratulations again.
    The second question I have relates to the budget. For 
fiscal year 2008, the President's budget would provide the NRC 
with I think about $917 million. That is an increase of $95 
million over the current fiscal year 2007. Could you just 
briefly describe for us the activities that this $95 million 
would fund?
    Mr. Klein. In part what that does, Mr. Chairman, is that it 
continues, first of all, our existing focus on reactor safety 
for those existing fleets. But more importantly, it lets us 
start building and planning for the new combined operating 
licenses that we expect to receive. We have created a new 
Division of New Reactor Operations so that we do not get 
distracted from our fundamental mission of safety with the 
existing fleet.
    So it will let us hire additional people. It will let us 
train those individuals. We have additional space needs. So it 
will let us become more efficient and we will continue to hire 
good people, train them, and be responsive to the American 
people.
    Senator Carper. All right. With respect to doing the actual 
licensing, I believe former Chairman Diaz had indicated earlier 
to us his belief that in light of the movement to a design-
centered approach to new reactor licensing, that the timeframe 
for licensing reviews could be significantly improved. 
Historically, how long did it take the NRC to process a license 
application? Second, how long do you believe it will take for 
the NRC to process the combined license once you begin 
receiving them?
    Mr. Klein. Mr. Chairman, as you know, in the past it has 
taken a very long time to license applicants, because we had a 
dual stage process of a construction permit and then an 
operating permit. What we have now done, as you know, is have a 
combined construction and operating license process. We 
additionally do design certifications, so we are trying to get 
a standardized approach in with our system so we don't ask the 
same questions over and over again. So we definitely hope to 
improve the process.
    Our current plan for the combined operating license is that 
it will take 30 months for the technical review, and then it 
will take 12 months for the hearing process.
    Senator Carper. Say that again?
    Mr. Klein. It is 30 months for the technical review and 
then 12 months for the hearing process. So 42 months is a long 
time, particularly when you look at other countries building 
these plants in about 40 months. So it takes about as long to 
license them as it does to build them.
    So I think after we get through the process, I hope we will 
have lessons learned implemented for the combined operating 
license, much like we did for the early site permit. The first 
few took about 33 months; the fourth one we expect to take 21 
months. So we hope that when we go through the process, we will 
learn how to do it better and, as Commissioner Jaczko said, we 
absolutely have to have good quality applications. It takes a 
lot longer to review a poor one that it does to review a good 
one. So we would like to see good applications, and then I 
believe we need to be responsive and evaluate those in a timely 
manner.
    Senator Carper. Good.
    Do any other Commissioners want to comment on this?
    Mr. McGaffigan. Mr. Chairman, I have routinely followed the 
chairman in various speeches. I do want to give you a 
cautionary note. I do think that in license renewal, we 
achieved the sort of things, the 42 months probably for the 
first reviews, and then we improved. But the situation here is 
quite different. The design-centered approach will help. But 
many of the designs are not certified yet, or will be 
undergoing updates. So we are going to have multiple things 
going on simultaneously.
    We are going to be working on far more applications from 
the get-go than we had in the case of license renewal. In 
license renewal, the rules relating to license renewal preceded 
me. They were passed in 1995 and early 1996. We are just 
issuing Part 52. The security rule is going to be issued later 
this year, the second of the three security rules, and the 
third one probably not until next year with regard to aircraft 
impact assessments.
    Our staff was stable back then. It is highly unstable at 
the moment. We are losing a lot of our most senior and gifted 
staff.
    We are going to do the best we can. We are going to 
absolutely do the best we can, but the analogy to license 
renewal and some of our previous successes is not perfect by 
any means.
    Senator Carper. All right. Thank you.
    I think I am going to hold it right there for myself, and 
yield to Senator Voinovich. We start voting again at about 11 
o'clock. I might want to suggest, Senator Voinovich, that once 
you have asked your questions, that you go vote, if you want, 
and then just come back and resume the hearing. That way, we 
won't have to stop at all. That would be my goal.
    Senator Voinovich. OK. Thanks very much.
    Human capital, you are saying that you are going to have 
another 200 hired this year. Have you ascertained if these 
applications come through, as we anticipate, what you are going 
to continue to have to do to hire people? That is No. 1.
    No. 2, if you are in the business of hiring more people, 
the industry is going to be have to be hiring more people. As 
Mr. McGaffigan had to say, you are having folks retire. If you 
go around this country, you are going to find everywhere that 
business is worried about whether or not they are going to have 
the individuals they are going to need to continue to do the 
job that they are doing. So we have a real crisis here.
    Do you believe that the private sector and academia is 
doing enough to recognize the fact that we have this problem? 
Is anybody really zeroing in on trying to make sure that you 
are going to have the people you need and the industry is going 
to have the people they need to get the job done?
    Mr. Klein. Senator, I do not believe enough is being done 
for the human capital. We at the NRC have been successful in 
hiring individuals, but we really need to increase the pool of 
applicants from which we can draw. I participated in the 
roundtable discussion at Ohio State that included industry, 
higher education, and also the trade schools, in terms of what 
can we do to more actively pursue getting more young people 
interested in the nuclear fields.
    I believe it is going to take a concerted effort by 
Government, by academia, and by industry to make this 
successful. If we all go after the same limited number of 
people and wave money in front of that same number of 
individuals, we all lose. We need to increase the applicant 
pool, and I don't believe that we have done it to the extent 
that we need to as a Nation.
    Senator Voinovich. In a recent conversation with 
Commissioner McGaffigan, he pointed out to me that you have a 
lot of new hires. One of the concerns that I have is what is 
the NRC doing to institutionalize the lessons learned that we 
have learned in the last couple of years? Do you have a special 
program to try and bring them up to speed, because ordinarily 
it takes quite some time to really break somebody in? Are you 
aware of that? What are you doing about it?
    Mr. Klein. We do have a program, Senator. It is very 
important to do knowledge management, to capture that 
knowledge. We do that in a couple of ways. For example, we have 
a qualification program. When we hire new employees, we go 
through a qualification program.
    One of the aspects we have been fortunate in doing is with 
those that have retired and may not want to work 7 days a week 
like some of us do, but they will come back and work part-time. 
They have been heavily involved in our training program. So we 
are documenting both in written and in verbal activities the 
knowledge management.
    Senator Voinovich. So you are taking advantage of the 
flexibilities that were given to you to take annuitants and 
bring them back on a part-time or full-time basis to try and 
train up the new people that are coming onboard?
    Mr. Klein. Absolutely. We appreciate your help in letting 
us do that on the rehire of the annuitants. That has been very 
helpful.
    Senator Voinovich. OK, physical facilities.
    Mr. Merrifield. Senator, can I just very briefly supplement 
what I think was your earlier question?
    Senator Voinovich. Yes?
    Mr. Merrifield. I have had a chance to go out to about a 
dozen universities in the last couple of years. I think there 
has been a dramatic increase in the number of nuclear engineers 
in our Nation's universities and colleges. For me, I don't 
think is going to be as much of a problem as the issue that 
industry I think is going to face with having skilled 
electricians, skilled welders, skilled pipefitters who are 
qualified to do the work in a potential wave of new nuclear 
powerplants.
    I think there is going to have to be a real commitment from 
our Government, from the industry, from labor unions and others 
to make sure that we work with our Nation's high schools, 
technical schools, and other training facilities to make sure 
that part of our technical workforce is available.
    So I think it is a little bit more of a problem for the 
industry than it is for us as an agency.
    Mr. McGaffigan. Senator Voinovich, if I might add, the 200, 
just as a clarification, is a net number. We are going to have 
to hire over 400 to get a net 200 increase. So we have 30 
percent of our staff who have been with us less than 3 years. 
When we meet with you a year from now, it will be over 40 
percent of our staff has been with us less than 4 years. It is 
a tremendous challenge.
    Mr. Merrifield. We met that challenge. We have been meeting 
that challenge. I think there is one important qualitative note 
to the issue as well. When we were doing hiring 5 or 6 years 
ago, the quality of the applicants that we were receiving is 
not as good as it is today. We have better applicants at the 
Agency, in part because we are such a good place to work, and 
in part because nuclear engineering is a much higher paid 
profession than it was 4 or 5 years ago, and that has helped, 
too.
    Mr. McGaffigan. But I think the chairman's testimony points 
out, even in nuclear engineering, it is very important that the 
program that you and Senator Bingaman worked on last year gets 
continued; that the universities have a fixed sum of money to 
continue their programs; that it doesn't come out of the other 
DOE programs, such as the Global Nuclear Energy Partnership.
    Senator Voinovich. What bothers me is that there is a $27 
million program that was supposed to go out to the engineering 
schools, and at the Department of Energy they have taken that 
money now and put it into this GNEP.
    Mr. McGaffigan. They haven't put it all in there. They have 
left some, and I think Congress again this year can, and I am 
speaking as one Commissioner, would urge that you have direct 
funding for the universities. We have not had a new research 
reactor in this country in decades.
    I think Dale has the last one and I will let him talk.
    Mr. Klein. The University of Texas at Austin's reactor is 
the last one that was built. It went critical in the early 
1990's. But one of the reasons we did that is we had an old one 
in the middle of the campus and we moved it to our research 
campus.
    In terms of the human capital, the undergraduate enrollment 
has gone up, but the graduate enrollment is pretty flat. We 
also need to look at not the enrollment, but the degrees 
granted. We tend to look at things in the pipeline, rather than 
output. So the output has not really risen that much.
    As you indicated, it is very important that the Department 
of Energy funds these university programs. Having lived in that 
arena for a number of years, it is very important that those 
programs receive funding because they have to compete for 
funding with other major programs, not only other engineering 
programs, but other components on campus. So it is very 
important that the Department of Energy continues its 
university programs.
    Mr. Jaczko. Senator, if I could just add briefly, too. I 
think we often talk about the nuclear engineering programs, but 
it cuts across the whole spectrum of engineering. We rely on 
electrical engineers, mechanical engineers, civil engineers. 
Certainly, we have some grant programs on the nuclear 
engineering side, but those broader categories of engineering 
skills are certainly areas where there is a lack of enrollment 
of students in those programs.
    Senator Voinovich. In conclusion, I would like to have kind 
of a half page on just what you are doing in terms of outreach 
to academia. I think I mentioned when you, Dale, were in the 
Partnership for Public Service. It is an organization that has 
a bunch of universities all over the country, a bunch, several 
hundred of them, that do a real job in trying to promote the 
opportunities that exist in the Federal Government. I would be 
interested to know whether or not you are on their list.
    Mr. Klein. We can tell you what we are doing for the 
record, and then we will also tell you what we think would help 
the Nation.
    [The information follows on page 64.]
    Senator Voinovich. I am sure the chairman and I would be 
more than happy to sit down with some of the leaders in the 
area and underscore our concern about having the people that we 
need to get the job done.
    Mr. Merrifield. Senator Voinovich, I think we have been 
successful enough in broadening our outreach to universities. I 
believe we have been getting some refer requests for the lists 
of where we recruit because the utilities are trying to follow 
on our success trail.
    Mr. McGaffigan. God help us.
    Senator Carper. All right. Mr. Voinovich, thanks.
    Senator Clinton, I understand the vote has been moved to 
11:10 a.m., so that leaves at least 7 minutes to have at it.
    Senator Voinovich, if you feel like slipping over to the 
floor, they should start voting right about the time you get 
there. If you could come back and relieve me, then I will be 
able to go vote.
    Senator Clinton, thank you.
    Senator Clinton. Thank you very much.
    Mr. Chairman and members of the commission, it won't 
surprise you to hear that I have continuing significant 
concerns about Indian Point and about the adequacy of the 
oversight that the NRC is providing. That is why I have 
introduced legislation to require an independent safety 
assessment at Indian Point.
    I simply don't have time in my round of questions to recite 
the full litany of recent problems at Indian Point, or to ask 
all of the questions that I have for the NRC, so I will submit 
additional questions in writing.
    But I do want to briefly describe some of the recent 
problems. Indian Point's rate of unplanned emergency shutdowns 
is now five to six times higher than the national average for 
all new nuclear plants in the United States. Indian Point Unit 
3 has had three unplanned shutdowns just so far in 2007. 
Entergy recently failed to comply with an extended deadline of 
April 15 to have a new siren system installed in the 
communities around Indian Point pursuant to a requirement that 
I added to the 2005 energy bill.
    In December 2006, the NRC gave Entergy 30 days to come up 
with a plan to resolve what the Agency called a chilling effect 
among workers who might be intimidated to not bring safety 
concerns forward. In August 2005, a leak was discovered in a 
spent fuel pool that seeped into the groundwater beneath the 
plant and reached the Hudson River. That leak continues today.
    So you can see why I am concerned, because my constituents 
are concerned. Just about every week, we pick up the local 
newspaper and find some other problem at Indian Point.
    First, I want to say thank you to the NRC for deciding to 
issue a fine of $130,000 for the failure of the sirens. But I 
remain concerned about Entergy's failure to meet a deadline 
that had already been extended 3 months. What is the cause of 
the delay? When do you expect the sirens to be fully 
operational? Why did you choose to assess a fine of $130,000, 
equivalent to the maximum daily penalty, when the violation has 
now exceeded 10 days?
    With respect to the independent safety assessment, when I 
discussed this with the NRC last year, I was assured that the 
NRC would conduct extra inspections at Indian Point. My 
understanding is those are underway, but the reality is that 
problems continue at the plant, and there is a significant 
trust gap in what the NRC is doing in Westchester and around 
Indian Point.
    If the NRC is so confident that its inspections are well 
run, why hasn't the NRC invited outside observers from State 
and local governments and NGO's to participate in these added 
inspections?
    With respect to the chilling effect that you determined 
existed at Indian Point, I note that the commission relied on 
independent assessments to reach this conclusion. Why is 
relying on independent assessments appropriate in this case, 
but not in looking at other safety issues?
    What is the estimated timeframe for stopping the current 
leaks from the spent fuel pool at Indian Point Unit 1? Are 
Entergy's decommissioning funds sufficient to cover the 
groundwater cleanup?
    So these are some of the questions. I asked them all at one 
time because it may very well be that you want to answer them 
all at once time, instead of taking them piece-meal. But I hope 
that NRC is prepared to address these and other concerns from 
local government tomorrow during the annual safety review in 
Westchester County.
    Mr. Chairman, I want to ask a request of you. I hope we 
could examine the issue of the adequacy of the reactor 
oversight process and the need for independent safety 
assessments in some detail, because I think that there are 
certain cases, and I believe Indian Point is one, where that 
additional safety check is necessary.
    So Mr. Chairman and Commissioners, could you perhaps 
respond to my general concerns about Indian Point?
    Mr. Klein. Senator Clinton, as we had visited prior to my 
confirmation hearing, it does seem like, as you indicated, 
Indian Point is snakebit sometimes. Certainly things like not 
getting the sirens working does not instill public confidence, 
so we are addressing those issues.
    Let me talk more broadly and then turn it over to 
Commissioner McGaffigan for further comments. I would like to 
just talk a little bit about the independent safety assessment 
and compare it with our reactor oversight. One of the first 
tasks that I looked at when I became Chairman was the 
independent safety assessment and reactor oversight, and did a 
comparison.
    I don't believe we are doing a good job at the Agency of 
explaining what our reactor oversight program is and what it 
does. It is a continuous evaluation process. Independent safety 
assessments tend to be a snapshot look. I think we need to do a 
better job as an agency of articulating what the NRC does. You 
and I have talked in the past. We want all of our reactors to 
be safe and examined, including Indian Point. So we try and we 
do have a program to ensure that reactors are safe. We have a 
rigorous inspection process.
    I would like to let Commissioner McGaffigan talk a little 
bit more about the reactor oversight program and the 
independent safety assessment concepts.
    Mr. McGaffigan. Thank you, Mr. Chairman.
    First, I would like to tell Senator Clinton, I have been 
over 10\1/2\ years on the commission and we have given Indian 
Point very close attention. The people of New York should thank 
God every day that Entergy is running that site as an 
integrated site. ConEd and NYPA were not interested in running 
a safe nuclear site. They wanted to be out of the business. So 
I believe Entergy has been an enormous step forward for the 
Indian Point site.
    Let me turn to the ISA. I also happen to be the sole 
Commissioner left to actually watch the first, the one and only 
ISA we ever conduced at Maine Yankee. Senator Sanders earlier 
today talked about how our ISA led to the closure. Our ISA was 
an ad hoc procedure that we invented in 1996 on a one-time 
basis. We had allegations that our Region I was too close to 
the licensee. We brought in people--independent--we had people 
from outside of that region and outside the Office of Nuclear 
Reactor Regulation come in. We had State involvement because we 
had an agreement with them. We have State involvement in 
inspections such as engineering inspections at Indian Point.
    Our reactor oversight process developed in the late 1990's 
is infinitely better in my view than the ad hoc ISA that we 
conducted at Maine Yankee. It was not our conducting an ISA 
that led to the closure of Maine Yankee. It was a corporate 
structure, with 14 different owners, many of which wanted to 
get out of the nuclear business. They had plenty of 
decommissioning funds and so they said, we are out.
    They brought Entergy in. They let them work for only a few 
months. Entergy would have been able to save that plant, and in 
some sense it is a sad story that corporate governance led to 
the closure of Maine Yankee, because it could be providing a 
lot of very needed power in New England today.
    We could talk to you about this at great length, why the 
reactor oversight program today, augmented as deem necessary at 
Indian Point, is so much better than the ISA conducted in 1996.
    Senator Clinton. If I could, Mr. McGaffigan, suggest that 
it might be worth considering having outside observers to try 
to rebuild some confidence in the work that you are doing. You 
all know, because you have been following this, it is just a 
terrible dilemma because there is the feeling that we keep 
being reassured that everything is fine, and then something 
goes wrong. It may be that the work that was done before was 
not up to standards, and there still are a lot of issues.
    But why not let some outsiders in so at least there can be 
validation of the work that you describe as going on under the 
NRC supervision?
    Mr. McGaffigan. I do think we invite the State to the 
engineering inspections that Chairman Diaz initiated (in fact, 
the whole concept of these extra engineering inspections was 
Chairman Diaz's). We had State involvement or invited it. I 
don't know whether it was taken advantage of when we had the 
first engineering inspections early this year.
    So that is our protocol in other States. The State of 
Illinois is famous for its aggressive participation in our 
inspections. We don't move away from that at all. I think a lot 
of the people who want independent assessments really have a 
quite negative agenda vis-a-vis nuclear power. I think their 
vision of an independent safety assessment is one where folks 
who are really quite opposed to nuclear power come in and 
second guess fairly minor incidents.
    Senator Clinton. Could I ask Commissioner Jaczko to 
comment?
    Mr. Jaczko. Well, I certainly think it is an interesting 
suggestion. I think it is one that I would support, of looking 
at ways that we could include an outside observer. I think your 
point about a trust gap is really very accurate. I think what 
we are dealing with at Indian Point to some extent is a trust 
gap.
    There are situations and problems that you mentioned, but 
based on our assessment and oversight process, we think that 
those are lower on the level of safety significance. So they 
are not issues that we think are of tremendous safety 
significance. But I think we are having a challenge 
communicating that to the public around that plant.
    I think adding something like outside observers to one of 
these design engineering inspections could perhaps go toward 
addressing that trust gap. But I believe we have done an 
inspection for Indian Point 2 as part of this design 
inspection. I believe Indian Point 3's inspection is coming up 
in the fall, so that would certainly be an area where I would 
support figuring out a way to include some outside observers. I 
think it would be good for the Agency to show the process that 
we use to go through this inspection.
    Senator Clinton. Commissioner Merrifield?
    Mr. Merrifield. Yes, Senator Clinton, I appreciate the 
suggestion. I think it is certainly one we could take a further 
look at. I don't think I am willing to commit at this point to 
having external folks come on board.
    Frankly, as an agency that has tried to be very open, when 
we conduct the inspection, we have a series of public meetings 
after that where we open up our results. We have a dialog in 
public to explain what we do. Our staff goes into great detail 
about the processes we use, the facilities we inspected, and 
the results.
    Yes, I think one of the things that we get somewhat 
defensive about, and I think it is somewhat understandable, is 
we were appointed as the independent regulator of nuclear 
power. I think some of our staff understandably take some 
umbrage when the issue of, well, gee, you are not independent 
enough, and there is a loss of trust.
    In our view, I think that is one of the challenges that we 
deal with as an independent regulator. We have to call it as we 
see it. It is sort of like a soccer game, the officials, you 
are going to have certain people in the stadium that aren't 
going to like your calls and certain people who are, simply 
based on the score.
    I agree with Commissioner McGaffigan. I think that there 
are some individuals, and certainly I don't mean to impugn your 
desire to seek the legislation, but I think there are some 
individuals who believe that were we to go down the route of an 
ISA at Indian Point that it would have the same result as Maine 
Yankee. I agree with Ed. I think it is a completely different 
factual situation relative to the issues that we were 
confronted with at Maine Yankee, which were quite serious. The 
issues, although you have noted them at Indian Point, are not 
nearly to the same safety significance.
    We have to worry about having a degree of uniformity in the 
inspection programs that we do. I think that is ultimately one 
of the concerns I have, that the application of our processes 
at Indian Point should also be applicable to my home State 
plant of Seabrook, to Arkansas Nuclear 1, to Palo Verde in 
Arizona, and elsewhere.
    To the extent we get ourselves to a point of cherry picking 
additional inspection resources based simply on some issues of 
public concern, I think that gets us into a very unpredictable 
standpoint as a regulator.
    Senator Clinton. Well, let me just end by saying that I 
understand what Commissioner McGaffigan said, that you do work 
with the State and the State could participate in some fashion. 
Is that correct?
    Mr. McGaffigan. That is my understanding. I don't know 
whether the January inspection--perhaps Commissioner Jaczko 
knows--whether they took advantage of the opportunity or not.
    Mr. Jaczko. It is my understanding that the State did have 
an observer for the inspection of Indian Point 2 that we did.
    Senator Clinton. OK. Thank you, Mr. Chairman.
    Senator Carper. Let me just follow up, if I can, with 
Senator Clinton. I may have mentioned this before you came, but 
we plan to hold a hearing later this year to discuss in some 
detail reactor safety and the reactor oversight process. I hope 
that you can join us at that time.
    I would also just say I think the comment was made--was it 
Entergy that now operates the facility that Senator Clinton has 
raised concerns about? It is interesting. Right across the 
river from where I live, in New Jersey, there are actually 
three nuclear reactors, nuclear powerplants: Salem and Hope 
Creek. During a period of time when they were overseen and 
supervised by PSEG, we had just a stream of problems and 
complaints and really legitimate concerns.
    The folks from PSEG brought in Excelon to run that 
facility, and it was like night and day. This is day, and it is 
just a much better situation. Now, there is an effort for the 
two companies to actually merge and that fell apart and I 
understand that PSEG wisely has hired some of the Excelon team 
to continue the oversight at that plant.
    So a lot of times, the quality of the people you have doing 
the job does matter. We have seen it with our own operation, 
with far fewer complaints, and just a far better feeling of 
safety, which is paramount.
    I want to ask another question, and Senator Voinovich will 
come back. We have about 7 minutes to go on our vote. Senator 
Voinovich hopefully will come back so I can go vote.
    I know the NRC is focused on finding ways--Senator Clinton, 
thanks again for joining us--to further expedite the licensing 
process. We talked a little bit about this, but I want to come 
back to it, if I may.
    While I applaud your efforts and encourage you to be as 
efficient as possible, as we said before, you have to ensure 
that safety, fairness, and excellence remain your priority. Can 
you assure us that as you look to take steps to expedite the 
licensing process, that the process itself is not being cut 
short?
    Mr. Klein. I can assure you, Mr. Chairman, that when we 
look at becoming more efficient, it is with no compromise on 
reactor safety. In all the activities that we look at in terms 
of becoming more efficient, taking lessons implemented, not 
just lessons learned, we always do that in mind with 
maintaining our oversight responsibility, and safety is No. 1.
    Senator Carper. All right.
    Mr. McGaffigan. Mr. Chairman, I will echo that. We are 
going to take the time necessary to do these license reviews. 
Again, going to my earlier remarks about the contrasts with 
license renewal, in license renewal, we were independent. The 
rules were very fixed, and we weren't dependent on anybody 
else.
    In new reactors, we are dependent on the Department of 
Homeland Security. We are dependent on the Department of 
Energy. We are dependent on numerous State agencies. We are 
also dependent on very high quality applications that deal with 
as many of these issues that involve other entities as 
possible.
    I am sure that we are going to take the time necessary to 
do the job right and build on that. For the nuclear 
renaissance, it is more important that it is sustainable than 
that it gets off to a rapid start.
    Mr. Merrifield. Mr. Chairman, we have been looking at ways 
in which we can improve our process for combined operating 
license applications. All of those efforts that we have made 
internally to look at that, all start from the baseline that we 
maintain our safety factors. But while I think Commissioner 
McGaffigan has outlined very well many of the challenges that 
face us, I think clearly--I agree with the chairman--I believe 
that there are improvements that we can make to make the 
process timely, efficient and effective and even more so, that 
maintains safety.
    Clearly, given the mandate that we have a commission and 
the intent that we have made to lead our staff to do better, it 
certainly is, I believe, our obligation as a commission to 
continue to set goals for our staff for improvement in the way 
we conduct our processes, while maintaining full safety.
    Senator Carper. All right.
    Mr. Jaczko. Senator, if I could just add a few points?
    Senator Carper. Mr. Jaczko?
    Mr. Jaczko. I do think we have to be a little bit careful 
when we do talk about some of these issues, because we haven't 
actually used this licensing process yet, the actual licensing, 
what we call the combined operating license review. We have 
done components of it with the early site permits.
    So we don't really yet know how long it will take. The 
staff has provided estimates about how long they think this 
process will take, but we really don't yet know. So I think we 
do have to be a little bit careful about trying to shorten he 
timeframe for a process that we don't really even know yet 
exactly how long it will take.
    I think the thing that we have learned, certainly through 
some of the other elements of this, is that it really does 
depend crucially on the quality of the applications. As we have 
done design certifications and done early site permits, areas 
where there have been delays have often been the result of the 
applicant not providing sufficient information, which has 
caused us to go back and forth several times to get the 
information we need.
    So a lot of this I think really focuses on getting the 
right information and making sure that we are only accepting 
applications that meet very, very high quality standards, 
because that will give us a predictable schedule, which I think 
is really the most important thing, more so than necessarily 
the time it takes, but having predictability.
    Mr. Merrifield. I would like to agree with particularly 
that last point. I think one of the things that we need to do 
is set clear expectations up front in our acceptance review of 
the application, in looking at the breadth and depth of that 
application, to give a licensee an expectation about what we 
think we can do in terms of that license review.
    I think traditionally in the past, we basically said, gee, 
if we receive an application, then we will take X amount of 
time, without making any judgments relative to the quality of 
the application and how that affects our ability to conduct a 
timely review.
    I think if we can do that, if we can communicate clearly 
and set a clear expectation up front that this is a high 
quality application and we believe it can be conducted in X 
months; or this is not as good an application, there are gaps 
to be filled; we believe it is going to be X plus some other 
number. I think that would certainly benefit the clarity, and 
certainly hopefully should benefit the expectation that 
Congress can expect from our Agency.
    Senator Carper. Good.
    Mr. McGaffigan. Mr. Chairman.
    Senator Carper. Go ahead, just briefly, and then I am going 
to have to run and vote. We have about 3 minutes to go. I am 
not as fast as I used to be.
    Mr. McGaffigan. Staff has laid out a program for each 
application for a Combined Operating License (COL) application 
that involves 2,000 to 3,000 different tasks that have to be 
carried out to get to the end point. Multiply it by 12 
simultaneous applications before us. Multiply that by design 
certifications under simultaneous review. When I listen to the 
staff talk about their plans, it is a monstrous management job 
that lies before them.
    Senator Carper. All right. Thank you for each of your 
responses to those questions. That was reassuring. I think, as 
Mr. Jaczko said, going back and forth, back and forth, until he 
got the information he wanted and needed, he kept going back 
and forth.
    Let me recess the subcommittee for a few minutes. Senator 
Voinovich will be back shortly. He will reconvene and ask his 
questions, and I will be back as quickly as I can.
    For the next few minutes, the subcommittee stands in 
recess. Thank you.
    [Recess.]
    Senator Voinovich [presiding]. Thank you.
    Senator Carper indicated I ought to just keep going.
    Chairman Klein, could you bring me up to date on just where 
you are with your office space situation?
    Mr. Klein. Senator, the office space has been a very 
challenging exercise. In February 2006, the Commission 
articulated its space needs to OMB and GSA to try to look at a 
permanent, long-term solution on space. It has been a very 
painful process of getting our space prospectus through the 
process.
    We hear that it is about to be submitted to Congress, but 
it has been very painful because we had real needs that came 
out of the convenient cycle of the OMB process. I personally 
met with Clay Johnson at OMB to try to make sure that they 
understood what our needs were. He fully supported us being 
looked at out of cycle.
    So we have been struggling to get through the bureaucracy 
of our space prospectus so it could be submitted to Congress. 
In the interim, what we have done is we had to move our 
training facility from our headquarters to Bethesda, about 
30,000 square feet. We also had to go for another facility for 
rental space of about 60,000 square feet. So we are now located 
in three different locations.
    One of my concerns is that the Kemeny Commission that 
analyzed the complicating factors of Three Mile Island 
indicated one of those factors was the fact that the NRC was in 
about seven different locations. So it is very important to the 
Commissioners that we are co-located so that our staff can 
communicate. So we would like to have facilities where it is 
within walking distance of the headquarters so that our people 
can communicate and that we can be an efficient body.
    We understand that the prospectus that is about to be 
submitted may have some cost limitations that are not 
commensurate with what the real costs are, so we may need some 
relief from Congress.
    Senator Voinovich. Where is that going to come to? You say 
it is a prospectus that comes over and you need legislation to 
authorize the expenditure of these funds?
    Mr. Klein. What we needed to do initially is through OMB 
and GSA, we negotiate what our space needs are. They then 
submit their prospectus to Congress, and Congress agrees. But 
part of this prospectus, what we have heard, is that the costs 
that the GSA is assuming is much less than what the cost of 
rental space is in the vicinity of the NRC, so we may need some 
assistance.
    Senator Voinovich. But does it take legislation? Or is it 
just a sign-off from a committee?
    Mr. Klein. I think it may take some legislation.
    Senator Voinovich. Well, I would like to get as much 
information as you can to see if we can't move it along. In 
Governmental Affairs and Homeland Security, we have 
jurisdiction over the General Services Administration, so maybe 
that would be helpful. So why don't you try and put me in the 
loop and put Senator Carper in the loop and see if we can't 
help get it done.
    Mr. Klein. We will definitely do that. We appreciate your 
support.
    [The information follows on page 64.]
    Senator Voinovich. OK. Based on some of the classified 
hearings--and I wish that Senator Sanders was here--we held 
since 9/11, I am convinced that the nuclear powerplants are the 
most protected and secured facilities in the commercial sector. 
In fact, I have said to some of my friends that if I hear 
something bad is going to happen, Perry Nuclear is about 20 
minutes from my house, so I am jumping in the car to see if 
they will let me in.
    [Laughter.]
    Senator Voinovich. I have visited other facilities in the 
State where they were bragging about how secure the facility 
was. I said that it doesn't hold a candle to what we have at 
our nuclear plants; why don't you go up and talk to them about 
what they have done to secure their places.
    So to the extent that you can talk about it in an open 
setting, can you briefly summarize what the NRC has done to 
upgrade security across the board? Can you explain the layered 
approach to security at nuclear facilities? I would welcome any 
comments from any of the members of the commission in regard to 
what you have to say.
    Mr. Klein. Thank you, Senator. I think your comments and 
assessments are very appropriate because if anyone has gone and 
visited a nuclear powerplant, they cannot help but come away 
and feel that these are robust, well protected, safe and secure 
facilities.
    As you know, before I became chairman of the Nuclear 
Regulatory Commission, I was at the Department of Defense in 
the ``noncontroversial'' portfolio of nuclear, chemical, and 
biological defense programs. In that area, we looked at a lot 
of threats that we had to our Nation and protecting the men and 
women in uniform that do such a great job of protecting us.
    So part of my responsibility was the physical security for 
other nuclear assets that the Department of Defense has. I was 
very impressed when I came over to the NRC to see both what the 
Agency has done in analyzing the possible scenario events of 
problems with their force-on-force exercises and with the 
increased attention physically that they have done for these 
plants.
    Since 9/11, the industry has spent over $1 billion in 
increasing security at these facilities. So I would like to 
echo your comments. These plants are safe and secure.
    In terms of the layered approach, there are certain aspects 
that we expect the utilities to perform, and then there are 
certain responsibilities that it is up to the Federal 
Government to do. Since 9/11, there has been a lot of emphasis 
on preventing hijackings. There are marshals that are on the 
planes. There are background checks. There are securities.
    So there is a lot of responsibility for aircraft events 
that are responsibilities of the Federal Government, not the 
nuclear plant owners. But we do expect the operators to 
maintain their own security systems. It is robust, but it is 
multilayered. You have the plant itself, then you have the 
local responders, and then you have the Federal Government.
    Senator Voinovich. The opening statement of Senator Sanders 
made reference to some things that I was not aware of. Do you 
want to comment on that? First, Ed, do you want to talk about 
that? Does anyone have any response to what he had to say about 
the GAO report and so forth?
    Mr. Klein. I think Commissioner McGaffigan might want to 
comment on that.
    Senator Voinovich. OK.
    Mr. Klein. But let me say this initially. The reactor 
oversight program is effective. We watch it. The Commissioners 
watch it. The staff watches it. We expect all the plants to 
have a safe and secure program. Reactor oversight is robust. We 
always look for how we can make it better. We communicate our 
results of those investigations.
    I think Commissioner McGaffigan might have some more 
comments to make.
    Mr. McGaffigan. Well, let me first, on the security 
question you had just asked, I lived through it. Jeff 
Merrifield lived through the whole period. We are very proud 
that we acted in February 2002, less than 6 months after 9/11. 
We acted again in April 2003. We have been on top of the 
security issues from the start. We have 8,000 security officers 
at 64 sites. That is about 125 per site. These are all 
unclassified. I couldn't go into how many are at Perry. That 
would be classified. But an average at anytime day or night, 25 
armed security officers are behind barriers that have been 
improved; with equipment that has been improved; training that 
has been improved thanks to an NRC order; and improved 
background checks. We are very proud of what we put in place.
    Particular to Senator Sanders's comments, we were speaking 
with the staff while the subcommittee was adjourned. We 
believe, as I said in response to Senator Clinton, that the 
current reactor oversight process is an enormous improvement 
over what was conducted at Maine Yankee early in my tenure on 
the commission. Senator Sanders referenced the fact that after 
the independent safety assessment, Maine Yankee was closed. I 
believe that that was a matter of corporate governance, and not 
of the ability of that site to be recovered. Entergy was 
brought in and not given enough time to save the plant, and we 
did not yet have a good market for buying plants that were in 
distress. So it was closed.
    The people making the decision, with 14 or 17 different 
owners involved, they had a very well funded decommissioning 
funds and they chose to walk away from the site. If you talk to 
the Entergy people that were involved at the time in trying to 
fix the problems, and there were significant problems, they 
feel that they could have recovered that site. They recovered 
equally bad sites in other parts of the country.
    My notes are not complete as to what other issues he 
raised. I have Maine Yankee, and not enormous confidence in us. 
I think that that is true. I don't know how we, in parts of the 
country where people routinely attack our integrity, get public 
confidence. But it is true and we have to work at that. As a 31 
year civil servant, I believe that the public should trust me 
and my staff at the NRC as the Nation's nuclear watchdog, but 
people with agendas have large voices in some of these 
communities.
    Mr. Merrifield. If I may jump in on that? I come from 
Southwestern New Hampshire, so we have a lot of interaction 
with our friends in Vermont. The house that we have up there is 
within 50 miles of Vermont Yankee, so the Vernon area of 
Vermont is quite familiar to me.
    There are a number of people in that part of the State of 
Vermont who feel quite passionately that Vermont Yankee should 
be shut down. They feel quite passionately that Vermont should 
be a nuclear-free zone and that other alternative forms of 
energy would be appropriate. Some of those, not all, and I 
don't mean to say this in an accusatory way, but some of those 
believe that the use of a Maine Yankee-like ISA would result in 
the same result for Vermont Yankee.
    We have no indicators, either from Vermont Yankee or for 
Indian Point, that there is anywhere near an analogous 
situation that would justify conducting that type of an 
invasive inspection. As Ed has mentioned, the salient elements 
of what we found at Maine Yankee have been brought into our 
current reactor oversight process. We learned. We learned 
through Davis-Besse. We learned through Maine Yankee. It has 
made us a better regulator.
    I think it could be argued on the flip side of it, we as an 
agency, were there to be a process, were we to single out units 
because of a political displeasure with them, I think it could 
be argued that such an action would be arbitrary and 
capricious. In the absence of specific evidence that we don't 
have, that those plants are not operating safely, for us to go 
in and do an integrated safety assessment would be punitive and 
in my view unwarranted.
    Mr. McGaffigan. Senator, I am finding my notes now. He 
raised a GAO report with regard to cesium 137 sources that were 
smuggled across the border. I want you to understand that the 
total amount that GAO smuggled across the border was on the 
order of 40 microcuries of cesium 137.
    Senator Voinovich. I don't know what you are talking about. 
Maybe Senator Carper does.
    Mr. McGaffigan. Well, it is a tiny, tiny amount, a factor 
of a million from an RDD, a factor of a million. I will leave 
out the units. We are our own worst enemy, and I think 
Commissioner Jaczko says this and I will agree, in 
communicating at times. Senator Sanders mentioned the thousand 
incidents of lost or abandoned sources over a 4-year period 
that GAO cited. Almost all of those are trivial, with factors 
of a million, sometimes factors of a billion from an RDD. But 
we have reporting requirements that require reporting of the 
trivial and those reports confused everyone. We have lost no 
significant radioactive source in the last 5 years, I believe; 
not lost and not recovered. The ones that we lost are used 
primarily in the oil and gas industry. They involve an isotope 
called iridium 192.
    But we are strict. I think having old reporting 
requirements that highlight trivial source losses, and I don't 
know whether in this room we have tritium exit signs, but you 
have them all over these buildings. Those are not RDD devices. 
There is no potential. Breaking exit signs is not a problem.
    So we don't communicate risk well enough and we need to do 
a better job of it.
    Senator Voinovich. Thank you.
    Senator Carper [presiding]. Thanks, Senator Voinovich.
    First of all, I understand you need to leave by 11:50. Is 
that right? OK.
    I am going to ask a question of you, so that you will have 
a chance to answer this before you leave. I want to cover a 
couple of questions with respect to license renewals, if I may.
    Commissioner Merrifield, how many nuclear powerplants have 
you visited in this country?
    Mr. Merrifield. All 104.
    Senator Carper. How many nuclear powerplants have you 
visited around the world?
    Mr. Merrifield. Two hundred and forty.
    Senator Carper. One of my questions is, who gets your 
frequent flyer miles?
    [Laughter.]
    Mr. Merrifield. Thanks to a change made by Senator Warner 
some years ago, I, like other Federal employees, am able to 
keep those miles.
    Senator Carper. That is great.
    Mr. Merrifield. I think for the benefit of my wife who 
happens to be in the audience, I think I have earned them.
    Senator Carper. Would your wife raise her hand? OK, thanks. 
Thanks for sharing with us. I could barely see your lips move 
when he spoke.
    [Laughter.]
    Senator Carper. A more serious question is, as you run 
around the world visiting all those hundreds of plants, and 
visit in countries like France where they rely a whole lot more 
on nuclear power than just about anybody else, what have you 
learned in looking at the way that they deal with their nuclear 
waste, spent fuels, that might be instructive to us as we look 
forward way down the road?
    Mr. Merrifield. The issue of reprocessing is a frustrating 
one. We invented that as part of the Manhattan Project. That 
was a technology we had that came from here. We used to 
reprocess fuel in the United States. The most recent civilian 
facility was in West Valley, NY, which closed in the 1970s due 
in part to a very significant environmental containment issue 
associated with that site. So there are issues about 
appropriate management.
    Our French counterparts, our English counterparts, our 
Russian counterparts, our Japanese counterparts all have the 
technology and capability to do reprocessing. In my personal 
view, we have the technology to do so in the United States and 
I think that that is something that the U.S. Congress should 
seriously consider whether it is appropriate or not to go back 
down that road.
    Clearly, reprocessing reduces the amount of space that 
would be needed for a final repository. That having been said, 
it does come with a significant cost. It is not a cheap option. 
It is less costly to dispose of used fuel. There have been 
environmental challenges in the past, although I believe 
personally that others have demonstrated that those can be 
resolved.
    So I think it is a matter which deserves serious reflection 
by Congress as to whether we ought to go down that road. I 
think it certainly would help to close the cycle.
    Senator Carper. All right. Thank you.
    When you need to leave, feel free, OK?
    Mr. Merrifield. Thank you very much.
    Senator Carper. Back to the license renewals, if I could. I 
think I said this earlier, but the first nuclear plant 
operating licenses technically expired last year. Approximately 
10 percent will expire by the end of 2010. I am told that more 
than 40 percent will expire by the end of 2015. Most, if not 
all, of these plants will be applying for license renewals that 
will allow those plants to continue to operate for another 20 
years or so.
    I have two questions. One is, how is the NRC geared up to 
handle the increased volume of license renewals expected in the 
next 10 years? The second related question is, could you please 
highlight for this subcommittee how the commission will assure 
that these reactors can be safely operated for the additional 
20 years?
    Mr. Klein. Mr. Chairman, as you indicated, this is an area 
in which the Nuclear Regulatory Commission has significant 
experience. We have done license renewals for 48. We have eight 
more currently under review. We expect 10 more coming in by the 
end of fiscal year 2008. As you indicated, we will probably 
receive license renewals for all of the plants that are 
operating.
    We have a very rigorous process which we go through to 
ensure that these licenses are renewed, that they are able to 
be done safely. We watch the plants each year and continuously. 
We have resident inspectors to make sure that they are operated 
properly.
    One of the issue that I think we need to look at as an 
agency, and start now, is what questions do we need to ask to 
see if they can be extended beyond 60 years. If you look at 
most of the nuclear plants and you talk about something that is 
40 or 60 years old, about the only thing that is 40 and 60 
years old is the license itself, because the pumps, the valves, 
the steam generators, a lot of the vessel heads have been 
replaced.
    So just like a car that you may renovate and keep running, 
the nuclear utilities have found that they have massive 
investments and that if they maintain them, they can operate 
safely to provide the American public with the benefit that 
they need, and that is safe, reliable electricity.
    So we need to start now, I believe, as a regulatory body to 
ask what do we need to look at for beyond 60 years.
    Mr. Merrifield. Mr. Chairman, I think we committed the 
commission, and the staff can correct me if I am wrong, to 
doing on average about 10 license renewals a year and funding 
it at that level of periodicity. I think that given all the 
other challenges before us, we have committed to making sure we 
have the resources in place to make that continue to be an 
efficient and effective process for conducting those.
    The point I would add onto what the chairman has said is, a 
key part of the license renewal process is getting an 
understanding of the aging management program of the utility.
    Senator Carper. Can you say that again? Getting a handle on 
what?
    Mr. Merrifield. Getting a handle on their aging management 
process. Do they have a process in place to identify and 
resolve issues such as buried piping, aging cabling, things of 
that nature? That is an ongoing review. It is not as if we 
write them a blank check and they don't have to worry about it 
for another 20 years. We have an expectation that in an ongoing 
way, and subject to the validation of our inspectors, whether 
that plant is 40 years old and a day, or 50 years old and a 
day, it will have the same level and measure of inspection to 
make sure that it is operating in a safe manner.
    Mr. McGaffigan. Mr. Chairman, just on the figures you cited 
at the outset, every plant that used to have a license that 
expires in the next few years is either already renewed or is 
in timely renewal for having requested license renewal. So 
there is no looming crisis that we are going to lose any 
plants, and we are in a very steady state, in fact, perhaps 
slightly declining volume of people that are coming in each 
year to be handled in license renewal. There would have been a 
crisis if we hadn't handled it well a decade ago or so, but 
there is no crisis today in terms of plants that might have to 
go offline.
    I also agree with the chairman that we can go beyond 60 
years. Commissioner Merrifield has said that as well. We have a 
so-called pressurized thermal shock rule that we think can be 
significant.
    Senator Carper. You have a what?
    Mr. McGaffigan. It is the integrity of the reactor pressure 
vessel. How long is the pressure vessel, the most important 
component viable?
    Mr. Merrifield. How long can it last given the pressures 
and temperatures it is subject to as far as operations go.
    Mr. McGaffigan. That rule we believe we will update in the 
next few years, and we will empower in doing so the potential 
for license renewal well beyond 60 years, if the plant is 
properly operated.
    Senator Carper. All right. Thank you.
    Senator Voinovich.
    Senator Voinovich. First of all, I think we ought to 
recognize the leadership of Nils Diaz of the NRC. I know we are 
congratulating you on the fact that it is the best place to 
work, but I think that some of the things that he put in place 
while he was chairman contributed to that. Nils, if you are 
reading the testimony, thank you very much for the leadership 
that you provided to the Nuclear Regulatory Commission.
    One of the things that I discussed with him at length is 
the issue of communications and public relations. I just wonder 
what steps have been taken by the commission to reach out to 
people that are really interested in this area, particularly on 
the local level. You were just referring to, was it the Yankee 
Vermont. Has anybody ever sat down with the editorial writers, 
the editors, to talk to them, to inform them about what the 
facts are, at least from your perspective?
    We have it all over the country, where it seems to me 
because of the public's interest in this, continuing interest, 
that the commission should have something in place where they 
are reaching out to bring people up to date on where you are 
and what you have done, so you are the ones that are coming 
forward with it, rather than reacting to some story that is 
written that may be based on information that is not reliable.
    Mr. Merrifield. I will take a stab at that one. I think we 
have really changed a lot as an agency in the 9 years that I 
mentioned. I think we used to take very much sort of a Maytag 
repairman approach to our mission. We appear when called upon. 
I think our view has changed more recently, and in fact it 
resulted in some recommendations.
    Senator Voinovich. By the way, I wish Maytag was still in 
business.
    [Laughter.]
    Mr. Merrifield. Me, too. But as a result of some changes 
recommended in a task force I led, I think the Agency has done 
more to be proactive in the approach it takes to the public and 
the people we serve. We have improved our Website. We have 
improved its quality and scope and we have made a more plain-
English version of many of the documents that we use to make 
them more approachable to average members of the public.
    When we have our regularized inspections at the site, we 
have public meetings where we open that up. We provide notices 
to let people come in and ask us questions about what have 
found, and ask questions about issues that they may have. We 
have been trying to conduct outreach to Members of Congress who 
have facilities in the localities of nuclear powerplants. We 
have done I think a better job in that regard.
    I think we have also, as you mentioned, tried to get out to 
a variety of newspapers, editorial boards, Rotaries and other 
entities to explain what we do as a regulator and why it is 
important.
    I think probably one of the problems that we confront, 
which was postulated by my first comment, is ongoing regulatory 
assessments of safety, it is not a very sexy issue for 
newspapers or the print media. In the absence of some major 
issue, the likelihood that we are going to get coverage is 
pretty small.
    But nonetheless, we have been making an aggressive effort 
to try to get out there. Obviously, we can do more and we 
should.
    Senator Voinovich. I would like to know if you have a plan 
in place that you are following, and it is not just hit and 
miss.
    Mr. Klein. Senator, we do have an active outreach program. 
I really agree with your comments and your assessment. We need 
to be more proactive on education. I would like to see the NRC, 
and I think my fellow Commissioners agree, that we would like 
to be the source of information. So if someone has a question 
about nuclear energy, they come to see us. They go to our 
Websites. We have information that is readable and very usable 
for what their needs are.
    I don't think we are there yet, but we are getting there. 
As Commissioner Merrifield said, we have modified our Websites. 
We have a public affairs person that tries to communicate and 
respond. So we try to be responsive to people's inquiries, but 
we need to do more, because I think we can educate the public 
in a better way than we have been.
    Mr. McGaffigan. Senator Voinovich, I would just point out 
that we do have annual assessment meetings at every reactor 
site that get attended in some places very heavily and in other 
places not as much. We have resident inspectors at every site. 
We are reluctant to give them too much exposure to the media 
because their job is to watch the reactors. But I have always 
felt that a tremendously unused asset is to allow our residents 
and senior residents to be interviewed by the local media. We 
have tried.
    The last point I will make to you is that you complimented 
Chairman Diaz for fixing all the problems at the NRC. It was 
started under Shirley Jackson and was continued under Dick 
Meserve and continued again under Nils Diaz. All of them 
deserve credit for helping to identify problems and fix 
problems.
    Mr. Merrifield. Mr. Chairman, having served under all of 
those chairmen, as well as Greta Dicus, who was chairman for a 
very short period, I agree with Ed on that. I think there is a 
lot of credit that goes for the progress that we have made as 
an agency.
    The only other comment I would make on meetings, I muse 
about a license renewal proceeding that we had probably 6 or 7 
years ago. It was associated with Arkansas Nuclear 1 down in 
Arkansas. We sent our resident inspectors and the professionals 
we had at the site to go out into the local community and put 
up signs and try to generate support for the license renewal 
meeting that we were conducting. So they did that, and three 
people showed up at that public meeting. Two of them were Boy 
Scouts who were getting their Eagle badges, and the third was 
their father who was accompanying them.
    So we have endeavored sometimes, but the response has not 
always been what we would hope.
    Senator Voinovich. Thank you.
    Senator Carper. All right. We are going to wrap it up here. 
I enjoyed this. It has been informative.
    First, let me just say to Commissioner Merrifield as you 
prepare to pull up anchor, you and your bride, and start using 
some of those frequent flyer miles. As we used to say in the 
Navy on occasions like this, ``Fair winds in a fallowing sea.'' 
So I would certainly want to say that to you.
    For the rest of you, you have to report back for duty. When 
we convene this hearing again, we look forward to having a 
closed session so that we can get into some more sensitive 
matters at that time.
    Mr. Merrifield. Senator, although this may be my last 
public hearing, I would certainly want to leave it on the 
record that as this was my home where I came from, having been 
a Senate Environment Committee staffer, I am always happy to 
come back either in private meetings or in a public setting 
even after my departure from the commission.
    Senator Carper. You may regret making that offer.
    [Laughter.]
    Mr. Merrifield. It is part of public service, Senator.
    Senator Carper. We hope not.
    Senator Voinovich, I don't know if you ever took driver's 
ed when you were a kid in high school. I know I did. I remember 
the first time we went out to drive, and I was in the driver's 
seat, we had dual controls in the cars then. It had a steering 
wheel and a set of brakes and the gas pedal for the instructor 
who was sitting in the right front seat. I was trying to figure 
out on my first time out how to use a stick shift, how to go 
back and forth between the brake and the accelerator.
    I remember we were coming back from my spin out in the 
countryside, and we were coming back to my high school, and 
turning in to the drive to back to my high school, and it was a 
gravel road. I was just thinking about what a great job I have 
been doing on that stick shift, and instead of putting on the 
brake as I turned into the drive, I stepped on the accelerator. 
Fortunately at the same time my instructor sitting right beside 
me stepped on the brake.
    I think there is a lesson that I still remember from all 
those years ago. There are a lot of folks who are encouraging 
you to step on the accelerator. There is a lot of work to do, 
and there is a need for us to move expeditiously in reviewing 
these applications for renewals and new projects.
    It is also important that somebody keep their foot on the 
brake and that we use both in an appropriate way.
    I have said this before and I will say it again: You all 
are doing a good job, particularly with providing a good 
workplace. Senator Voinovich's comments about your predecessors 
as chairmen are well timed. But everything we do, everything I 
do, I can do better. As good as you obviously feel about the 
work that has been done in the last 9 years that Commissioner 
Merrifield was talking about, you know that there is still room 
for improvement. We urge you to find that room and make it 
happen.
    I have a question. I am going to save the question and ask 
you to respond on the record. The question is: Is this Yucca 
Mountain repository designed to house 70,000 metric tons of 
nuclear waste? By the year 2035, the United States is projected 
to have produced 105,000 metric tons of nuclear waste. Since 
the Nuclear Waste Policy Act requires the Government to assume 
responsibility for permanently disposing of the Nation's 
nuclear waste, how does this impact the NRC's licensing of 
future nuclear power generation?
    If you would provide responses for us on the record on 
that, I would be grateful.
    Again, we thank each of you, Mr. Chairman, and to each of 
our Commissioners. We thank you for not just appearing today. 
We thank you for responding to our questions and for your 
testimony, and for being frank and forthright with us. We have 
explored some important issues. We are going to continue in 
this session of Congress to do that, both in public sessions 
like this and on occasions when it is appropriate, in closed 
sessions.
    It is a real honor for me to sit here next to Senator 
Voinovich, and to continue to provide some leadership for this 
subcommittee. They have their work cut out for them and clearly 
we do as well.
    With that having been said, this hearing is adjourned.
    [Whereupon, at 12 o'clock p.m., the subcommittee was 
adjourned, to reconvene at the call of the chair.]
    [Additional statement submitted for the record follows.]
     Statement of Peter B. Lyons, Commissioner, Nuclear Regulatory 
                               Commission
    Chairman Carper, Ranking Member Voinovich, and members of the 
subcommittee, I thank you for the opportunity to provide this statement 
before your subcommittee on Clean Air and Nuclear Safety. I truly 
regret that my duties prevent me from speaking to you personally today.
    In the two years of my tenure at the Nuclear Regulatory Commission 
(NRC), the challenges confronted by the Commission have demanded great 
devotion to the standards of independence, public openness, and sound 
technical bases, standards I am proud to say have been met. During my 
tenure I have gained immense respect for my fellow Commissioners and 
for the agency's highly competent and professional staff. As a Nation 
and as an agency, we face even greater future challenges and the need 
for continuing commitment and dedication. Therefore, I once again 
reaffirm my personal commitment to public service in a manner that 
continues to meet these high standards.
    I gratefully acknowledge the support of this subcommittee and of 
Congress in providing the resources necessary for the NRC to carry 
forward its mission and meet the challenges of the future. As the NRC 
purposefully and thoughtfully prepares for what is likely to be an 
unprecedented wave of new power reactor applications, we are also very 
mindful of our mission to ensure the safety of today's operating 
reactors. If we hope to contribute to a new generation of power 
reactors that safely and securely help meet our Nation's future energy 
needs and increase our energy independence, we recognize that this 
opportunity rests on the continued safe operation of today's reactors. 
Our reactor inspection and oversight program serves as a model of 
continuous improvement. In the hands of our resident inspectors at each 
site and teams of specialist inspectors in our regional offices, it 
remains our strongest oversight tool.
    Reactor-site security has been enhanced through NRC orders and 
regulations since September 2001 and by the NRC-graded testing of 
security forces. Our nuclear power critical infrastructure is among the 
best protected of all critical infrastructures in our country and 
provides a benchmark to which other industries can strive. The 
Commission has given and continues to give thoughtful and careful 
consideration to the security-related requirements that are necessary 
to ensure adequate protection of public health and safety. This 
consideration entails close and constant collaboration with our 
Federal, State, and local partners in assessing the threat environment 
and maintaining an effective response capability. I have been pleased 
with our progress but continue to monitor it closely. Plant designs 
that could be built in the future already have improved safety features 
that will also make them more resistant to threats such as aircraft 
crashes. These designs will, in addition, meet the requirements for all 
power reactors to have mitigation capabilities to cope with such 
events.
    The NRC's ability to meet its future human capital needs will 
continue to be a priority because we are in competition with the 
utilities, designers and vendors, manufacturers, other agencies, 
national laboratories and universities, and even with other countries 
that are outdistancing us in their advancement of nuclear technologies. 
The Nation must continue to focus on its academic infrastructure to 
attract the bright and motivated young people we will need in the 
future. The U.S. was the originator of nuclear technology, but we have 
lost the lead. The research and test reactors and associated 
instrumentation and controls that are used to train new generations of 
engineers have not appreciably changed since they were first designed 
in the 1950s and 1960s. Ensuring continued federal funding through the 
Department of Energy is necessary to enable the U.S. to catch up and 
once again become a leader in this arena. Our future health as a Nation 
depends on it. In a similar vein, the Commission is evaluating the use 
of digital instrumentation, controls, and safety systems into nuclear 
power plants. Along with essential safety benefits, this technology 
brings regulatory, experience, and expertise challenges. To help 
address this issue, the Commission has directed the staff to conduct a 
public workshop to explore approaches for establishing an integrated 
digital instrumentation and control and human-machine interface test 
facility in the U.S.
    We are fortunate to have had a long history of NRC managers and 
executives who have fostered a working environment that has garnered 
award-winning recognition as one of the best Federal employers. Our 
rapid expansion has stressed our ability to find adequate work spaces 
for our new employees, and I respectfully ask this Subcommittee for its 
continued support as we seek the best ways to accomplish our expansion 
while maintaining our reputation as a Federal employer of choice.
    In closing, I thank the Subcommittee for this opportunity to 
address these important topics, and I look forward to a continuing 
dialog with you.
                               __________
      NRC's Initiatives Involving Institutions of Higher Education
    In FY 2006, the NRC reached out to academia to stimulate interest 
in fields of study related to nuclear power by implementing the Nuclear 
Education Grant program. NRC provides grants to support courses, 
studies, training, curricula, and disciplines pertaining to fields that 
are important to the work of the agency. The NRC has made available 
$4.7M to institutions and anticipates that 20 grants will be awarded 
in FY 2007.
    The Scholarship and Fellowship Program supports students pursuing 
an education in critical skill areas related to the NRC's regulatory 
mission. In return, students must fulfill a two to four year term of 
employment with the NRC, depending on the degree level of the program.
    Through the Minority Serving Institutions Program (MSIP), the NRC 
establishes and participates in partnership programs with institutions 
of higher education, including Historically Black Colleges and 
Universities (HBCUs), Hispanic Serving Institutions (HSIs) and Tribal 
Colleges and Universities (TCUs), to enhance their capacity to train 
students in fields that are critical to the agency's mission. Programs 
and activities include, but are not limited to: mentoring, leadership, 
research and development opportunities, program evaluation, training 
and technical assistance, recruitment and retention initiatives, 
student tuition assistance, scholarships, and housing.
    The agency has been working to establish solid relationships with 
colleges and universities. Agency staff present seminars to students, 
faculty, placement officials, and on-campus society chapters to inform 
students and faculty of the agency's mission and how various 
disciplines are applied at the NRC. In addition, the Chairman and 
Commissioners have visited college campuses on a number of occasions to 
speak before audiences on the importance of nuclear engineering and 
other technical programs. Chairman Klein has recently made 
presentations at the Ohio State University and Massachusetts Institute 
of Technology.
    In FY 2006, the agency established the University Champions (UC) 
program. The UC's serve as emissaries of the NRC and establish a close 
individual liaison with the school officials. They participate in 
meetings with engineering and science department heads, professors, and 
career counselors, as well as conduct NRC information sessions with 
students. UC's work closely with the NRC recruitment team to assure 
highly qualified students have an opportunity to be considered for 
employment at the NRC.
    As part of ongoing recruitment efforts, NRC participates in 
numerous events sponsored by colleges, universities and professional 
organizations. These efforts not only support the immediate hiring of 
NRC's full-time workforce, but provide outreach for programs such as 
cooperative education, internships, and summer employment which support 
the agency's long-term skill needs.
    NRC offers funding opportunities for research, including an 
upcoming request for proposals to perform research to support the 
development of high temperature gas cooled reactor tools and data. 
Universities are also eligible for cooperative research agreements with 
the Agency.
                               __________
                         NRC Office Space Needs
    May 1, 2007: NRC staff held a conference call with Senate Committee 
on Environment and Public Works, Subcommittee on Clean Air and Nuclear 
Safety Majority and Minority staff regarding the NRC's office space 
needs and the current prospectus.
    May 3, 2007: NRC staff held a conference call with the House 
Transportation and Infrastructure Committee, Subcommittee on Economic 
Development, Public Buildings, and Emergency Management Minority staff 
director regarding the NRC's office space needs and the challenges in 
the prospectus currently before the Subcommittee for consideration.
    May 7-15, 2007: NRC Congressional Affairs staff met with 12 
personal offices, including Senator Cardin's staff and staff to members 
of the House Transportation and Infrastructure Committee, Subcommittee 
on Economic Development, Public Buildings, and Emergency Management, to 
apprise them of NRC's office space needs and the challenges in the 
current prospectus.
    May 30, 2007: NRC staff met with Senate Committee on Environment 
and Public Works, Subcommittee on Transportation and Infrastructure 
Majority and Minority staff regarding the NRC's office space 
prospectus. The following one-page overview of NRC's office space needs 
at its headquarters and challenges in the current prospectus was 
provided to Subcommittee staff.
    Week of June 4, 2007: NRC Congressional Affairs staff will meet 
with the House Transportation and Infrastructure Committee, 
Subcommittee on Economic Development, Public Buildings, and Emergency 
Management Majority staff director.
                                 ______
                                 
                   Overview of NRC Office Space Needs
                                problem
    The NRC needs additional office space for its headquarters to 
accommodate its staff growth. Given the agency's anticipated increased 
workload and expected retirements, the U.S. Nuclear Regulatory 
Commission (NRC) must hire 400 new staff each year for the next 5 
years.
    The proposed rent cap in the GSA prospectus for additional office 
space for NRC headquarters does not reflect the market level for North 
Bethesda, the Agency's current headquarters location.
                               background
    NRC consolidation is key. Independent studies have concluded that 
consolidation of NRC's headquarters is essential to NRC's operational 
efficiency, regulatory effectiveness, and incident response capability.
    The GSA prospectus includes a rate cap of $32/square foot and a 
delineated area of ``suburban Maryland.'' However, GSA has advised NRC 
that expansion the search radius to 3 miles is not likely to yield 
options within the proposed $32/square foot rate cap; GSA advised that 
$41/square foot is more realistic for the current headquarters 
location.
                                 costs
    The NRC is seeking relief from the $32/square foot rent cap 
($3,840,000 annual rent maximum) by raising the rent cap to $41/square 
foot ($4,920,000 annual rent maximum). This is a proposed annual rent 
maximum increase of $1,080,000.
    Rent costs (fully serviced) for current Headquarters facilities:
    One White Flint North: $36.67/s.f.
    Two White Flint North: $40.29/s.f.
    Bethesda-Gateway: $37.37/s.f.
    Executive Blvd: $37.42/s.f.
    NRC is a fee-based agency. Ninety percent of costs are borne by 
industry. Industry supports maintaining NRC consolidation, given the 
resulting efficiencies.
    If NRC's headquarters were to deconsolidate and seek additional 
office space 3 miles or more away from its current location, the annual 
recurring costs plus rent at the GSA proposed rent cap of $32/square 
foot would result in an annual cost increase of $1,638,000 for the 
space. Therefore, maintaining the NRC headquarters consolidation at or 
near its current location in North Bethesda will result in a lower cost 
profile over time, even at the requested increased rent cap of $41/
square foot.
                             action needed
    Amend prospectus maximum proposed rental rate to $41.00 per square 
foot.
  

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
